<html>
<title> - OLYMPIC ABUSE: THE ROLE OF NATIONAL GOVERNING BODIES IN PROTECTING OUR ATHLETES</title>
<body><pre>[Senate Hearing 115-773]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 115-773

                             OLYMPIC ABUSE:
    THE ROLE OF NATIONAL GOVERNING BODIES IN PROTECTING OUR ATHLETES

=======================================================================

                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON CONSUMER PROTECTION,
                       PRODUCT SAFETY, INSURANCE,
                           AND DATA SECURITY

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 18, 2018

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                Available online: http://www.govinfo.gov
                
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-950 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------                
               
                
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  TOM UDALL, New Mexico
JAMES INHOFE, Oklahoma               GARY PETERS, Michigan
MIKE LEE, Utah                       TAMMY BALDWIN, Wisconsin
RON JOHNSON, Wisconsin               TAMMY DUCKWORTH, Illinois
SHELLEY MOORE CAPITO, West Virginia  MAGGIE HASSAN, New Hampshire
CORY GARDNER, Colorado               CATHERINE CORTEZ MASTO, Nevada
TODD YOUNG, Indiana                  JON TESTER, Montana
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                                 
                                 
                                 ------                                

  SUBCOMMITTEE ON CONSUMER PROTECTION, PRODUCT SAFETY, INSURANCE, AND 
                             DATA SECURITY

JERRY MORAN, Kansas, Chairman        RICHARD BLUMENTHAL, Connecticut, 
ROY BLUNT, Missouri                      Ranking
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  TOM UDALL, New Mexico
JAMES INHOFE, Oklahoma               TAMMY DUCKWORTH, Illinois
MIKE LEE, Utah                       MAGGIE HASSAN, New Hampshire
SHELLEY MOORE CAPITO, West Virginia  CATHERINE CORTEZ MASTO, Nevada
TODD YOUNG, Indiana
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 18, 2018...................................     1
Statement of Senator Moran.......................................     1
    Prepared statement of McKayla Maroney........................     2
Statement of Senator Blumenthal..................................     4
Statement of Senator Hassan......................................    26
Statement of Senator Cortez Masto................................    32
Statement of Senator Klobuchar...................................    34
Statement of Senator Capito......................................    37
Statement of Senator Thune.......................................    39
Statement of Senator Peters......................................    41

                               Witnesses

Jamie Dantzscher, Gymnastic and Olympic Bronze Medalist..........     6
    Prepared statement...........................................     7
Jordyn Wieber, Gymnast and Olympic Gold Medalist.................     9
    Prepared statement...........................................    11
Bridie Farrell, Speed Skater and 2014 Olympic Hopeful............    12
    Prepared statement...........................................    16
Craig Maurizi, Figure Skater.....................................    22
    Prepared statement...........................................    23

                                Appendix

Hon. Bill Nelson, U.S. Senator from Florida, prepared statement..    49
Hon. Dianne Feinstein, U.S. Senator from California, prepared 
  statement......................................................    49
Response to written questions submitted to Jamie Dantzscher by:
    Hon. Jerry Moran.............................................    50
    Hon. Richard Blumenthal......................................    51
    Hon. Catherine Cortez Masto..................................    51
Response to written questions submitted to Jordyn Wieber by:
    Hon. Jerry Moran.............................................    52
    Hon. Richard Blumenthal......................................    53
    Hon. Catherine Cortez Masto..................................    54
Response to written questions submitted to Bridie Farrell by:
    Hon. Jerry Moran.............................................    54
    Hon. Richard Blumenthal......................................    55
    Hon. Catherine Cortez Masto..................................    56
Response to written questions submitted to Craig Maurizi by:
    Hon. Jerry Moran.............................................    57
    Hon. Richard Blumenthal......................................    58
    Hon. Catherine Cortez Masto..................................    58

 
                             OLYMPIC ABUSE:
    THE ROLE OF NATIONAL GOVERNING BODIES IN PROTECTING OUR ATHLETES

                              ----------                              


                       WEDNESDAY, APRIL 18, 2018

                               U.S. Senate,
      Subcommittee on Consumer Protection, Product 
              Safety, Insurance, and Data Security,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:37 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Jerry Moran, 
Chairman of the Subcommittee, presiding.
    Present: Senators Moran [presiding], Blumenthal, Thune, 
Capito, Klobuchar, Peters, Hassan, and Cortez Masto.

            OPENING STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Good afternoon, everyone, colleagues and 
witnesses and our visitors.
    I call this hearing to order and will keep my opening 
remarks very brief because it's so important today that we hear 
from those witnesses who have powerful stories that will 
resonate with each of us.
    To our witnesses, I've met most of you. I will look forward 
to having a conversation with you afterwards, if that's 
desirable, but thank you for being here today to share your 
experiences with the Subcommittee.
    I speak for all of us when I say that we're grateful for 
your representation of the United States of America, that you 
did so well, and that you've done so many things good even 
outside your sport. We appreciate your willingness to spend 
your afternoon with us and discussing ways that we can better 
protect our athletes.
    I believe we all wish to see Americans successful in 
international competitions and I understand the value of 
encouraging young athletes to participate in our nation's 
thriving sports culture.
    This Subcommittee, which exercises jurisdiction over the 
U.S. Olympic Committee and Amateur Sports, is fully committed 
to ensuring the health and safety of all American athletes from 
youth sports to Olympians.
    In January, Senator Blumenthal and I launched a bipartisan 
subcommittee investigation to examine cultural and systemic 
problems regarding abuse after serious and disturbing 
revelations that former USA Gymnastics Team Dr. Larry Nassar 
sexually abused hundreds of athletes over two decades, even 
well after survivors alerted authorities about his actions.
    Together, we have sought extensive documentation from the 
U.S. Olympic Committee, from USA Gymnastics, and from Michigan 
State University regarding this specific case.
    To further expand the investigation, we requested written 
documentation from all national governing bodies on their 
policies and procedures and reporting, handling, and combating 
abuse and their use of athlete organization non-disclosure 
agreements.
    Today's hearing represents the next step in our 
investigation. The Ranking Member and I met with several 
athletes earlier this year, including two of our witnesses here 
today, and we felt it was absolutely necessary to have your 
experiences shared with the subcommittee.
    I'm also eager to hear our witnesses' advice and 
recommendations on what Congress ought to be doing to make 
certain athletes are protected from predators and can freely 
participate in their sport without fear of abuse.
    I appreciate the incredible bravery of our witnesses and 
their willingness to be here to discuss these sensitive topics. 
You all are enormously talented and successful athletes who 
made your country proud but were taken for granted by the 
organizations you represented. You were let down by individuals 
whom you trusted but who chose to ignore you, to look the other 
way or to deliberately cover up the abuses you suffered because 
their priority, simply put, was not your safety or your well-
being.
    Thank you for your time that you've taken to prepare and to 
present your testimony today and, finally, while she's not here 
today, another abuse survivor, McKayla Maroney, has submitted 
written testimony to the subcommittee.
    Ms. Maroney, as many of you know, is another Olympic gold 
medal-winning gymnast abused by Larry Nassar and whom was 
alleged to have been silenced from speaking out by USA 
Gymnastics through an NDA.
    I ask unanimous consent that her testimony be entered into 
the record.
    Without objection.
    [The prepared statement of Ms. Maroney follows:]

                                                     April 18, 2018

Senator Jerry Moran,
Chairman,
Subcommittee on Consumer Protection, Product Safety, Insurance, and 
Data Security,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Senator Richard Blumenthal,
Ranking Member,
Subcommittee on Consumer Protection, Product Safety, Insurance, and 
Data Security,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Chairman Moran and Ranking Member Blumenthal,

    For as long as I can remember, gymnastics was my life. As a child, 
my mom said, ``I need to put this child in gymnastics, to tire her 
out.'' You could say I was in gymnastics since the age of 18 months. 
I've always felt comfortable in the gym, sort of my home away from 
home.
    I was 7 years old for my first competition. I remember getting 
ready for the meet. I got my hair braided with a cool bow, and some 
sparkles. I got to wear this really awesome leotard and wore a matching 
warm-up. Life was good, I looked good . . . and I was pretty certain 
that one day I'd be heading off to the Olympics!
    The Olympics is something that brings people hope and joy. It 
inspires people to fight for their dreams, because anything is possible 
with hard-work and dedication. I remember watching the 2004 Olympics. I 
was 8 years old, and I told myself that one day I would wear that red, 
white, and blue leotard, and compete for my country. Sure, from the 
outside looking in, it's a remarkable and amazing story. I did it. I 
got there, but not without a price.
    I made the U.S. National Team at the age of 14 and began to compete 
throughout the world for my country. When I first met Larry Nassar, he 
was the doctor for our National Team and our Olympic team. I was told 
to trust him, that he would treat my injuries and make it possible for 
me to achieve my Olympic dreams. Dr. Nassar told me that I was 
receiving ``medically necessary treatment that he had been performing 
on patients for over 30 years.''
    As it turns out, much to my demise, Dr. Nassar was not a doctor, he 
in fact is, was, and forever shall be, a child molester, and a monster 
of a human being. End of story! He abused my trust, he abused my body 
and he left scars on my psyche that may never go away.
    It all started when I was 13 or 14 years old, at one of my first 
National Team training camps, in Texas, and it didn't end until I left 
the sport. It seemed whenever and wherever this man could find the 
chance, I was ``treated.'' It happened in London before my team and I 
won the gold medal, and It happened before I won my Silver Medal. For 
me, the scariest night of my life happened when I was 15 years old. I 
had flown all day and night with the team to get to Tokyo. He'd given 
me a sleeping pill for the flight, and the next thing I know, I was all 
alone with him in his hotel room getting a ``treatment.'' I thought I 
was going to die that night.
    Because the National Team training camps did not allow parents to 
be present, my mom and dad were unable to observe what Nassar was 
doing, and this has imposed a terrible and undeserved burden of guilt 
on my loving family.
    Larry Nassar deserves to spend the rest of his life in prison. Not 
only because of what he did to me, my teammates and so many other 
little girls--He needs to be behind bars so he will never prey upon 
another child. I urge you to impose the maximum sentence upon him.
    Ever since I went public with my story, I have been inspired and 
uplifted by the love and support of my former teammates, fans and many 
other good people.
    People should know that sexual abuse of children is not just 
happening in Hollywood, in the media or in the halls of Congress. This 
is happening everywhere. Wherever there is a position of power, there 
seems to be potential for abuse. I had a dream to go to the Olympics, 
and the things that I had to endure to get there, were unnecessary, and 
disgusting.
    I was deeply saddened by the stories of my fellow Olympic teammates 
that suffered as I did at the hands of Larry Nassar. More than 140 
women and girls had to say, ``#MeToo'' to Nassar's sexual assaults and 
hundreds more were victimized to create the pornographic images that 
fueled his evil desires.
    A question that has been asked over and over is: How could have 
Larry Nassar been allowed to assault so many women and girls for more 
than two decades?
    The answer to that question lies in the failure of not one, but 
three major institutions to stop him--Michigan State University, USA 
Gymnastics and the United States Olympic Committee.
    When my story became public the U.S. Olympic Committee said, ``Each 
doctor working with our athletes undergoes background checks including 
an evaluation of medical licensure actions. Unfortunately, this 
predator was not identified by any organization during the time in 
question.''
    Reports in the Nation's leading newspapers and media outlets 
document credible claims that Michigan State University trainers and 
coaches received complaints about Nassar going back to the late 1990s. 
These complaints were ignored.
    Nassar was not even licensed to practice medicine in Texas, yet he 
``treated'' and abused girls at the Karolyi Ranch Olympic Training 
Center in Huntsville, Texas for more than 15 years.
    In 2014, Nassar was the subject of a Michigan State University 
investigation based on additional complaints of sexual misconduct. This 
botched investigation concluded that Nassar's actions, which he has now 
admitted were sexual assaults, were legitimate medical treatments. He 
was allowed to go back to work at Michigan State University and 
continue molesting girls. USA Gymnastics and the U.S. Olympic Committee 
were never informed of this investigation.
    When other Olympic and National Team athletes complained to USA 
Gymnastics about Larry Nassar in 2015 he was allowed to retire as the 
Olympic Team doctor and Michigan State University was never informed of 
the complaints against him.
    He returned to Michigan State University and allegedly continued to 
molest young girls until he was finally arrested nearly a year later.
    A simple fact is this. If Michigan State University, USA Gymnastics 
and the U.S. Olympic Committee had paid attention to any of the red 
flags in Larry Nassar's behavior I never would have met him, I never 
would have been ``treated'' by him, and I never would have been abused 
by him.
    It is my hope that Federal and state law enforcement agencies will 
not close the book on the Larry Nassar scandal after he receives his 
just punishment. It is time to hold the leadership of Michigan State 
University, USA Gymnastics and the United States Olympic Committee 
accountable for allowing, and in some cases enabling, his crimes.
    Our silence has given the wrong people power for too long, and it's 
time to take our power back.
    Thank you,
                                           McKayla Maroney.

    Senator Moran. With that, I now turn to the Ranking Member 
of the Subcommittee, Senator Blumenthal, for his opening 
remarks.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you. The faces and voices that 
we're going to see and hear today give new meaning to the word 
``courage'' and ``sacrifice.''
    A year and a half ago, you stepped forward, along with 
others, to give those faces and voices to a cause which 
continues to shock us and to sadden the Nation. There's very 
little these days that seems to shock this nation, but your 
experiences and others that have been recounted now still 
elicit that emotion.
    Fortunately, the survivors of abuse across Olympic sports 
deserve our thanks and if I have one message for the folks who 
are testifying today, it is the gratitude of our nation, our 
Senate, our committee, for coming forward and continuing to be 
part of this effort at reform, and it has to be a continuing 
crusade.
    This hearing is just one more step. I want to thank 
Chairman Moran and the Chairman of our Committee, Senator 
Thune, as well as the Ranking Member, Senator Nelson, for 
giving us this authority and platform to move forward.
    How was this abuse allowed to continue over so many years? 
What systematically allowed it to happen? How can we prevent it 
from happening to any athlete again, not only in gymnastics but 
now, as we're learning, in other sports where young people can 
be victimized by predators who have so shocked the nation?
    A number of young athletes in your position felt that 
speaking out would mean the end of their careers, their 
reputations, and their opportunity for athletic glory, 
particularly Olympic glory. Some were discouraged or told they 
couldn't be helped. Circumstances reached a level that even 
elite athletes suffering abuse were afraid to speak out. How do 
we create a system that encourages truth-telling, speaking 
truth to power rather than hiding it?
    Two of those courageous voices are here today, Olympic 
Medalists Jordyn Wieber and Jamie Dantzscher. Ms. Wieber is a 
2012 Gold Medalist and a member of what the media dubbed the 
``Fierce Five.'' Ms. Dantzscher is a 2000 Bronze Medalist.
    These awards are distinctions, athletic distinctions for 
ability and perseverance and hard work, but they deserve medals 
for courage and stamina in speaking out and standing up and 
their courage in testifying numerous times, not just here.
    I'd like to thank McKayla Maroney, as well. She's a 2012 
Gold Medalist and a member of the Fierce Five for her courage 
in submitting her written testimony for the official record. 
Her experience also points to systematic problems that need to 
be addressed because they will enable continued abuse.
    I want to say very bluntly of particular concern to me are 
the reports that the USAG actively sought to silence Ms. 
Maroney with a nondisclosure agreement in response to a lawsuit 
she filed against the U.S. Olympic Committee, USA Gymnastics, 
and Michigan State University.
    There, multiple organizational failures to properly 
investigate, discipline, or remove abusers after complaints of 
sexual abuse are absolutely unconscionable. This non-disclosure 
agreement shows the hazards and dangers and damage that can be 
caused by those kinds of enforced concealment agreements. It 
would impose a $100,000 fine if the victim were to violate its 
confidentiality clause by speaking out about the sexual abuse.
    As Chairman Moran has mentioned, as we continue this 
investigation, we're seeking answers about Ms. Maroney's story 
and others that have been silenced.
    So let me just say finally across Olympic sports, there are 
stories of young athletes who have been victimized and have 
survived physical, emotional, and sexual abuse. It's an 
undeniable reality. We want to fight it and correct it and 
prevent it from happening again.
    And again my thanks to Chairman Moran and Chairman Thune 
and Ranking Member Nelson and, most important, thank you to the 
survivors for your incredible courage in sharing your 
experiences and your stories and supporting others who have 
done so, as well.
    Thank you.
    Senator Moran. Thank you, Senator Blumenthal.
    A couple of observations. First of all, there's a vote now 
scheduled at 4:30, and we would hope to have our hearing 
concluded by the time of that vote.
    Second, Senator Blumenthal is correct. This is an ongoing 
investigation. I would make my fellow committee members aware, 
as well as others, that we have identified May 22 as our next 
hearing date.
    We are in the process of inviting but to date we have 
notified the USA Gymnastics as well as the United States 
Olympic Committee and Michigan State of our intention to have a 
hearing that would involve their participation as witnesses on 
that date. It is a work in progress but it is one of the next 
steps that the Subcommittee intends to take.
    With that, let me introduce, although the Ranking Member 
did an admirable job introducing our witnesses, our witnesses 
today are Ms. Jordyn Wieber, a Gymnast and Olympic Gold 
Medalist from 2012, London; Ms. Jamie Dantzscher, Gymnast and 
Olympic Bronze Medalist, Sydney, in 2000; Ms. Bridie Farrell, a 
Speed Skater in 2014, Olympic Hopeful; and Mr. Craig Maurizi, a 
Figure Skater.
    With that, we'll take your testimony of approximately five 
minutes, and if there are things that you want to add to the 
record, we'd be glad to have additional comments in writing.
    Ms. Dantzscher.

            STATEMENT OF JAMIE DANTZSCHER, GYMNAST 
                  AND OLYMPIC BRONZE MEDALIST

    Ms. Dantzscher. Chairman Moran, Ranking Member Blumenthal, 
distinguished members of the Committee, I am honored to appear 
before you today.
    One year ago, I testified in front of the U.S. Senate 
Judiciary Committee in support of legislation to protect child 
athletes from sexual abuse in gymnastics and other Olympic 
sports. That legislation is now law and I want to thank all of 
the Members of Congress and both parties who voted for it.
    I was the first Olympic athlete to come forward publicly 
and reveal Nassar's long history of abuse and, sadly, I was not 
the last. We now know that for the 2012 Fierce Five gold medal 
gymnasts are Nassar survivors, including my sister survivor 
Jordyn Wieber.
    I let the world know that the former Olympic Team Dr. 
Nassar abused me at the USA National Training Center in Texas. 
He abused me in California and during gymnastics competitions 
all over the world. He even abused me in my hotel room in 
Sydney at the Olympic Games.
    I now understand that through all of that time, USA 
Gymnastics had policies that prohibited adults from being alone 
in hotel rooms of children but they didn't enforce the 
policies.
    I knew at that time that speaking out would not be easy or 
painless. Back in 2000 as a teenager, I had the audacity to 
speak out against the abusive training methods employed by Bela 
and Martha Karolyi and I suffered criticism from USA Gymnastics 
staff, coaches and the media.
    I believe that speaking out was my right. I believe that 
this abuse was allowed to happen because many adults at USA 
Gymnastics, the United States Olympic Committee, Michigan State 
University, and in various gyms throughout the country kept 
Larry Nassar's secret. They failed to speak up and they let 
Nassar assault children.
    I have numerous nieces and nephews. I could not look at 
them any longer and stay quiet. I knew as a former Olympian 
that if I spoke, people might be more likely to speak up, as 
well. As it turned out, I was right.
    In the summer of 2016, I began to understand that Larry 
Nassar had sexually abused me and his procedures were not 
legitimate medical treatment. I further came to learn that he 
had been quietly dismissed by USA Gymnastics based upon 
allegations that he had sexually abused minors on our Olympic 
and National Women's Gymnastics Teams. His firing was kept 
quiet by USA Gymnastics and he was allowed to post messages on 
social media that he said he had retired.
    I decided to seek justice not just for myself but to 
protect others. Initially, I filed a lawsuit as a Jane Doe but 
I did give an interview to the Indianapolis Star when my case 
was filed. Almost immediately after filing, I was bullied on 
social media. My name was put on various social media sites by 
Nassar supporters who were either told or figured out my 
identity.
    A senior USAG official actually sent me a Facebook petition 
she was circulating to support Larry Nassar. Others attacked me 
personally, questioning my motives, my character, my morals, 
and even my sanity. Attorneys working for USA Gymnastics called 
former boyfriends and tried to dig up dirt on me, asking very 
personal and detailed questions about my sex life. They blamed 
my parents and generally attacked my character.
    This upset me greatly. I had done nothing wrong, except 
speak the truth about what happened to me as a little girl. 
Their response was to blame the victim.
    USA Gymnastics put out an immediate statement about my 
lawsuit. They said they found out about Dr. Nassar's misconduct 
in 2015 and immediately contacted law enforcement. A few months 
later, we found out that that was a lie.
    USA Gymnastics has now admitted that they waited more than 
5 weeks before contacting the FBI and the FBI waited a year 
before contacting any of the survivors or their families.
    During that time, Larry Nassar went back to his clinic at 
MSU and continued to molest children. I began to learn that I 
was not alone. Almost immediately, other girls and women began 
to come forward with stories disturbingly similar to mine.
    I learned through the media that there were dozens, if not 
hundreds of victims. Today, more than 250 women have already 
come forward in court and to law enforcement. All have told 
stories that are disturbingly similar to mine.
    Larry Nassar was convicted criminally, first on Federal 
charges for child pornography, then on state charges for 
criminal sexual conduct. He has been sentenced to 300 years in 
prison.
    USA Gymnastics has also been to court attempting to dismiss 
claims by more than 200 women by contending that they had no 
legal duty to prevent Nassar's abuse or tell us that he was an 
abuser.
    I sat through the depositions of USA Gymnastics President 
Steve Penny and other USAG officials. I was stunned by the way 
their lawyers fought to prevent them from answering any 
meaningful questions about what they knew and when they knew 
it. I was disgusted by their answers when they did answer 
questions. Their answers were either misleading or attempted to 
justify their misconduct.
    I urge the Committee to read these depositions and question 
Mr. Penny and other USAG officials under oath. Maybe they will 
answer tough questions and tell you the truth. I hope they do.
    This is a case of powerful people protecting other powerful 
people. It is up to you as powerful members of the U.S. Senate 
to hold them accountable and I believe you will.
    Thank you for listening to all of us.
    [The prepared statement of Ms. Dantzscher follows:]

            Prepared Statement of Jamie Dantzscher, Gymnast 
                       and Olympic Gold Medalist
    Chairman Moran, Ranking Member Blumenthal, distinguished members of 
the Committee, I am honored to appear before you today.
    One year ago, I testified in front the U.S. Senate Judiciary 
Committee in support of legislation by to protect child athletes from 
sexual abuse in gymnastics and other Olympic sports. That legislation 
is now law and I want to thank all of the members of Congress in both 
parties who voted for it.
    I was the first Olympic athlete to come forward publicly and reveal 
Nassar's long history of abuse and sadly, I was not the last. We now 
know that 4 of the 2012 ``Fierce Five'' gold medal gymnasts are Nassar 
survivors including my sister survivor Jordyn Wieber.
    I let the world know that the former Olympic Team doctor Nassar 
abused me at the USA National Training Center in Texas, he abused me in 
California and during gymnastics competitions all over the world. Worst 
of all, he abused me in my hotel room in Sydney at the Olympic Games.
    I now understand that through all of that time USA Gymnastics had 
policies that prohibited adults from being alone in hotel rooms with 
children but they didn't enforce the policies.
    I knew at the time that speaking out would not be easy or painless. 
Back in 2000, as a teenager I had the audacity to speak out against the 
abusive training methods employed by Bela and Marta Karolyi and 
suffered criticism from USAG staff, coaches and the media.
    I believed that speaking out was my right. I believed that this 
abuse was allowed to happen because many adults at USA Gymnastics, the 
United States Olympic Committee, Michigan State University and in 
various gyms throughout the country kept Larry Nassar's secret. They 
failed to speak up and let Nassar assault children.
    I have numerous nieces and nephews. I could not look at them any 
longer and stay quiet. I knew as a former Olympian that if I spoke 
people might be more likely to speak up. As it turned out. I was right.
    In the summer of 2016 I began to understand that Larry Nassar had 
sexually abused me and his procedures were not legitimate medical 
treatment. I further came to learn that he had been quietly dismissed 
by USA Gymnastics based upon allegations that he had sexually abused 
minors on our Olympic and National Women's Gymnastics Teams. His firing 
was kept quiet by USA Gymnastics and he was allowed to post messages on 
social media that said he had ``retired''.
    I decided to seek justice, not just for myself but to protect 
others. Initially I filed a lawsuit as a Jane Doe but I did give an 
interview to the Indianapolis Star when my case was filed. Almost 
immediately after filing, I was bullied on social media. My name was 
put on various social media sites by Nassar supporters who were either 
told or figured out my identity.
    A senior USAG officials actually sent me a Facebook petition she 
was circulating to support Larry Nassar. Others attacked me personally, 
questioning my motives, my character, my morals and even my sanity.
    Attorneys working for USA Gymnastics called former boyfriends and 
tried to dig up dirt on me, asking very personal and detailed questions 
about my sex life. They blamed my parents and generally attacked my 
character. This upset me greatly. I had done nothing wrong except speak 
the truth about what happened to me as a little girl. Their response 
was to blame the victim.
    USA Gymnastics put out an immediate statement about my lawsuit. 
They said they found out about Dr. Nassar's misconduct in 2015 and 
``immediately'' contacted law enforcement. A few months later we found 
out that was a lie. USA Gymnastics has now admitted that they waited 
more than five weeks before contacting the FBI. . .and the FBI waited a 
year before contacting any of the survivors or their families.
    During that time, Larry Nassar went back to his clinic at MSU and 
continued to molest children. I began to learn that I was not alone. 
Almost immediately other girls and women began to come forward with 
stories disturbingly similar to mine. I learned though the media that 
there were dozens if not hundreds of victims. Today more that 250 women 
have already come forward in court and to law enforcement. All have 
told stories that are disturbingly similar to mine.
    Larry Nassar was convicted criminally, first for on Federal charges 
for child pornography, then on state charges for criminal sexual 
conduct. He has been sentenced to 300 years in prison.
    USA Gymnastics has also been to court, attempting to dismiss claims 
by more than 200 women by contending that they had no legal duty to 
prevent Nassar's abuse or tell us that he was an abuser.
    I sat though the depositions of former USA Gymnastics Chairman Paul 
Parrilla and former President Steve Penny. I was stunned by the way 
their lawyers fought to prevent them from answering any meaningful 
questions about what they knew and when they knew it. I was disgusted 
by their answers when they did answer questions. Their answers were 
either misleading or attempted to justify their misconduct. I urge the 
Committee to read these depositions and question Mr. Parrilla and Mr. 
Penny under oath. Maybe they will answer tough questions and tell you 
the truth. I hope they do.
    This is a case of powerful people protecting other powerful people. 
It is up to you, as powerful members of the United States Senate to 
hold them accountable and I believe you will.
    Thank you for listening to all of us.

    Senator Moran. Thank you very much for your comments and 
your testimony.
    Ms. Wieber.

              STATEMENT OF JORDYN WIEBER, GYMNAST 
                   AND OLYMPIC GOLD MEDALIST

    Ms. Wieber. Good afternoon, Chairman Moran, Ranking Member 
Blumenthal, and members of the Committee. Thank you for the 
opportunity to speak to you today.
    I thought that training for the Olympics would be the 
hardest thing I would ever do, but, in fact, the hardest thing 
I've had to do is process that I'm a victim of Larry Nassar.
    It has caused me to feel shame and confusion. I spent 
months trying to think back on my experience and wonder how I 
didn't know what was happening to me and how I was betrayed by 
Larry Nassar and everyone at USA Gymnastics and the U.S. 
Olympic Committee, organizations sanctioned by the Federal 
Government whom I trusted to be on my side.
    I started seeing Larry Nassar at the age of eight years old 
in my hometown of Lansing. He was the best gymnastics doctor in 
the world. Everyone at my gymnastics club, on the U.S. National 
Team, and across the country saw Larry and everyone said the 
same thing. He was a miracle worker and he could fix just about 
anything.
    I was treated by Larry for any and all of my injuries from 
ages eight to 18, and it wasn't long before he had gained my 
trust. He became a safe person of sorts. To my teenage self, he 
appeared to be the good guy in an environment that was intense 
and restricting. He would try to advise me on how to deal with 
the stresses of training and my coaches.
    At the Karyoli Ranch, the National Team Training Center, 
our Olympic team athletes were motivated by fear, fear of being 
treated as invisible if you didn't perform to their standards. 
We couldn't smile or laugh during training. We were even afraid 
to eat too much in front of our coaches who were pressured to 
keep us thin, even though we were doing extremely rigorous 
exercise for up to 35 hours a week.
    Bear in mind, this is happening to little girls as young as 
9 years old. This toxic environment was the perfect place for a 
predator like Larry Nassar to flourish and he did.
    Larry acted like our friend. He always had a sympathetic 
ear for complaints about our coaches. He would bring us food 
and coffee at the Olympics when we were hungry. I didn't know 
that these were all grooming techniques that he used to 
manipulate and brainwash me into trusting him.
    When I was 14 years old, I tore my hamstring in my right 
leg. This was when he started performing the procedure that 
we're all now familiar with. I would cringe at how 
uncomfortable it felt. He did it time after time, appointment 
after appointment, convincing me that it was helping my 
hamstring injury.
    The worst part was that I had no idea he was sexually 
abusing me for his own benefit. I knew that it felt strange 
but, after all, he was the National Team doctor. I knew that if 
I questioned his treatment, I would risk my chance at making 
the Olympic team or being chosen to compete internationally. 
After all, Larry was recommended by the National Team staff and 
he treated us monthly at all of our National Team camps.
    I had even talked to my teammates Aly Raisman and McKayla 
Maroney about the treatment and how uncomfortable it made us 
feel. None of us could quite understand it.
    After I made the Olympic team, I suffered a stress fracture 
in my right shin. It was extremely painful to tumble and land 
with my legs but I fought through the pain because it was the 
Olympics and I knew it would be my only shot. Our bodies were 
all hanging by a thread in London and who was the doctor that 
USAG sent with us to keep us healthy and help us get through? 
The doctor that was our abuser and a child molester.
    To this day, I still don't know how he could have been 
allowed to do this for so long. We now know he abused my sister 
survivor and fellow Olympian Jamie Dantzscher 20 years ago. 
Women at Michigan State University reported his abuse even 
earlier and they were silenced and ignored. If these 
institutions had done their job, none of us would be sitting 
here today.
    My teammates and I were subjected to his medical care every 
single month at the Karyoli Ranch in Texas. He was the only 
male allowed to be present in the athlete dorm rooms to do 
whatever treatments he wanted. He was allowed to treat us in 
our hotel rooms alone and without any supervision. He took 
photos of us during training and whenever else he wanted to. 
Nobody was protecting us from being taken advantage of. No one 
was even concerned whether or not we were being sexually 
abused. Me and my teammates were not protected.
    My parents trusted USA Gymnastics and Larry Nassar to take 
care of me and we were betrayed by both. Now the lack of 
accountability from USAG, USOC, and Michigan State have caused 
me and many other girls to remain shameful, confused, and 
disappointed.
    I am an Olympian. Despite being abused, I worked so hard 
and was able to achieve my goal, but I want everyone to know 
that I'm one of over 250 women and survivors whose story is 
just as important. Our pain is all the same and our stories are 
all important.
    The people and organizations who are responsible need to 
accept responsibility for the pain they've caused me and my 
sister survivors. Larry Nassar has received his punishment and 
he'll never see the outside of a prison cell again. Now it's up 
to Congress to hold those people and institutions accountable 
who enabled Larry Nassar and attempted to cover up his terrible 
crimes.
    USA Gymnastics, the U.S. Olympic Committee, and MSU must 
all be held accountable. My teammates and sister survivors have 
been through too much. No one should ever have to endure 
physical, emotional, or sexual abuse for the privilege of 
representing our country as athletes. Now it's time for a 
change because the current and future athletes don't deserve to 
live in anxiety, fear, or be unprotected like we were.
    Thank you.
    [The prepared statement of Ms. Wieber follows:]

 Prepared Statement of Jordyn Wieber, Gymnast and Olympic Gold Medalist
    Good afternoon Chairman Moran, Ranking Member Blumenthal and 
members of the Committee. Thank for the opportunity to speak to you 
today.
    I thought that training for the Olympics would be the hardest thing 
I would ever do. But in fact, the hardest thing I've had to do is 
process that I am a victim of Larry Nassar. It has caused me to feel 
shame and confusion. I spent months trying to think back on my 
experience and wonder how I didn't know what was happening to me and 
how I was betrayed by Larry Nassar and everyone at USA Gymnastics and 
the U.S. Olympic Committee--organizations sanctioned by the Federal 
government whom I trusted to be on MY side.
    I started seeing Larry Nassar at the age of 8, in my hometown of 
Lansing. He was the best gymnastics doctor in the world. Everyone at my 
club, on the U.S. National team, and across the country saw Larry and 
everyone said the same thing. He was a miracle worker and he could fix 
anything. I was treated by Larry for any and all of my injuries from 
ages 8 to 18. It wasn't long before he had gained my trust. He became a 
safe person of sorts. To my teenage self, he appeared to be the ``good 
guy'' in an environment that was intense and restricting. He would try 
to advise me on how to deal with the stresses of training and my 
coaches.
    At the Karyoli Ranch National Training Center our Olympic and 
national team athletes were motivated by fear. Fear of being treated as 
invisible if you didn't perform to their standards. We couldn't smile 
or laugh during training. We were even afraid to eat too much in front 
of our coaches who were pressured to keep us thin even though we were 
doing extremely rigorous exercise for up to 35 hours per week.
    Bear in mind, this was happening to little girls as young as 9. 
This toxic environment was the perfect place for a predator like Larry 
Nassar to flourish . . . and he did.
    Larry acted like our friend. He always had a sympathetic ear for 
complaints about our coaches. He would bring us food, candy and coffee 
at the Olympics when we were hungry. I didn't know that these were all 
grooming techniques that he used to manipulate and brainwash me into 
trusting him.
    When I was 14 years old, I tore my hamstring in my right leg. This 
was when he started performing the procedure that we are all now 
familiar with. I would cringe at how uncomfortable it felt. He did it 
time after time, appointment after appointment, convincing me that it 
was helping my hamstring injury. The worst part was that I had NO idea 
that he was sexually abusing me for his own benefit. I knew it felt 
strange, but he was the national team doctor.
    I knew that if I questioned his treatment I risked my chance at 
making the Olympic team or being chosen to compete internationally. 
After all, Larry was recommended by the national team staff and he 
treated us monthly at all of our national team camps. I had even talked 
to my teammates Aly Raisman and McKayla Maroney about the treatment and 
how uncomfortable it made us feel. None of us could understand it.
    After I made the Olympic team, I suffered a stress fracture in my 
right shin. It was extremely painful to tumble and land using my legs, 
but I fought through the pain because it was the Olympics and I knew it 
might be my only shot. Our bodies were all hanging by a thread in 
London. Who was the doctor that USAG sent with us to keep us healthy 
and help us get through? The doctor that was our abuser. The doctor 
that is a child molester.
    To this day, I still don't know how he could have been allowed to 
do this for so long? We now know he abused my sister survivor and 
fellow Olympian Jamie Dantzscher twenty years ago. Women at Michigan 
State University reported his abuse even earlier and they were silenced 
and ignored. If these institutions had done their job, neither of us 
would be sitting here today.
    My teammates and I were subjected to his medical care every single 
month at the Karolyi Ranch in Texas. He was the only male allowed to be 
present in the athlete dorm rooms to do whatever treatments he wanted. 
He was allowed to treat us in hotel rooms alone and without any 
supervision. He took photos of us during training and whenever else he 
wanted. Nobody was protecting us from being taken advantage of. Nobody 
was even concerned whether or not we were being sexually abused. I was 
not protected. My teammates were not protected. My parents trusted USA 
gymnastics and Larry Nassar to take care of me and we were betrayed by 
both. And now, the lack of accountability from USAG, USOC, and Michigan 
State University, have caused me and many other girls to remain 
shameful, confused, and disappointed.
    I'm an Olympian. Despite being abused, I worked so hard and was 
able to achieve my goal. But I want everyone to know that I am one of 
over 250 women and survivors whose story is just as important. Our pain 
is all the same. And our stories are all important.
    The people and organizations who are responsible need to accept 
responsibility for the pain they caused me and my sister survivors. 
Larry Nassar has received his punishment. He will never see the outside 
of a prison cell again
    Now it is up to Congress to hold those people and institutions 
accountable who enabled Larry Nassar and attempted to cover up his 
terrible crimes.
    USA Gymnastics must be held accountable. The U.S. Olympic committee 
must be held accountable. MSU must be held accountable.
    My teammates and sister survivors have been through too much. No 
one should ever have to endure physical, emotional or sexual abuse for 
the privilege of representing our county as athletes. Now, it's time 
for change, because the current and future athletes do not deserve to 
live in anxiety, fear, or be unprotected like I was.
    Thank you.

    Senator Moran. Ms. Farrell.

           STATEMENT OF BRIDIE FARRELL, SPEED SKATER 
                    AND 2014 OLYMPIC HOPEFUL

    Ms. Farrell. Thank you for the invitation to testify today 
and thank you to everyone in the room for being here.
    As a survivor of childhood sexual abuse during my 
competitive years as a speed skater, I'm here to speak truth to 
the negligence and at times exploitation of children as well as 
to discuss ideas to create safer sport environments for current 
and future children through balanced, purposeful, and effective 
policies, to the best of my ability.
    My name is Bridie Farrell. I earned a B.S. from Cornell 
University in Policy Analysis and Management. I'm Co-founder 
and CEO of New York Loves Kids and I currently live in 
Brooklyn, New York.
    In 1998-99, my parents enrolled my brother Patrick and I in 
speed skating with the Saratoga Winter Club. I was six years 
old, smiling, and loving everything about racing fast. 
Ironically, my reasons for being here today began around the 
same time.
    By April 1990, Northern Michigan University's Human 
Resources Department and Public Safety Department, the United 
States Olympic Committee via the United States Olympic 
Education Center, members of the United States Speedskating 
Team, and members of USA Boxing knew of the sexual misconduct 
of resident athlete, coach, and employee at Northern Michigan 
University, Andy Gabel.
    Documents obtained by a FOIA request that are attached to 
the testimony that I handed in reveal both the inadequate 
investigation and a very successful cover-up.
    An individual within the boxing community witnessed a 14-
year-old female, we'll call Jane Doe, entering and exiting Andy 
Gabel's room at Nalen Hall at Northern Michigan University on 
numerous occasions. Andy Gabel was about 24 or 25 at the time.
    The botched investigation has no record of interviewing 
Jane Doe nor interviewing Andy Gabel, who are the people 
concerned with the investigation. There's also no documentation 
of contacting the parents of Jane Doe. Numerous adults, all 
men, were made aware of criminal situation, and no one alerted 
the parents of a 14-year-old child.
    I will highlight a few sections of the official reports now 
as well as include them in my testimony. Exhibit A. This is a 
quote from the report, ``We also felt that it was needed to be 
aware of both parties' rights in this matter.'' Written by the 
leading investigator on the case, which (1) shows the severity 
of the claims and acknowledges the rights of both parties. 
However, the municipality police department was never 
contacted. Thus, they did not take seriously the situation that 
they acknowledged and, second, acknowledging the rights of both 
parties, Jane Doe was never interviewed or contacted again nor 
her parents. It certainly reads that the parties deserving 
equal rights are the institution and the male abuser.
    The next excerpt states that Mr. Love, who's an adult 
within USA Boxing, sees Jane Doe leaving Andy Gabel's room late 
at night in sleeping clothes with a blanket and crying. Andy 
Gabel's explanation of the incident is that he had just 
informed Jane Doe they're ending seeing each other. Basic logic 
backs this up. Only one step to realize that they were seeing 
each other. He was 24 or 25 and she was 14.
    A conversation between Speedskater Charles King and Mr. 
Moore, who was involved with the investigation, documents more 
the inappropriate and illegal sexual relationship that Gabel 
was involved in. King allegedly told Mr. Moore on January 1990 
that Gabel and Jane Doe went into the room while King was 
there, that they were in bed together and that it was obvious 
that they had sex.
    And then the conclusion of the report reads, ``Due to the 
fact that none of the allegations concerning sexual relations 
between Gabel and Jane Doe could be substantiated, there's no 
further action to take by this department. Signed Victor J. 
Lauria, Investigator, Northern Michigan University Public 
Safety.'' And this is where the story of Andy Gabel and sports 
should end.
    Let me confirm what you're already afraid to hear and that 
his career did not end here. Andy Gabel went on competing 
through 1998. He then became involved with the Salt Lake 
Olympic Committee, the President of the USA Speedskating while 
I was still an athlete, and, finally, Chairman of the ISU when 
he finally resigned in 2013. The sexual predator remained in 
speed skating for over 30 years after his behavior was 
identified.
    My story is on February 28, 2013, I confidently sat in the 
Lake Effect Recording Studio in Milwaukee, Wisconsin, with Ms. 
Tyke to record my first disclosure on child sexual abuse at the 
hands and ego of Andy Gabel. I was sexually abused at 15 by my 
33-year-old teammate in his house in Saratoga Springs. I was 
molested on a blanket he laid out at the Saratoga National 
Battlefield. I was molested in Saratoga Springs Spa State Park. 
I was molested at ice rinks. I was molested in restaurant 
parking lots. I was sexually abused on the grounds of the 
United States Olympic Training Center in Lake Placid, New York. 
I was sexually abused in my high school parking lot. I was 
sexually abused in the back hallway of my parents' house. I was 
molested in the driveway after early ice training before the 
sun had even come up.
    The man who molested me perfected the deceitful art of 
grooming. He established trust with my family. He saw my father 
for his doctor. He sought out piano lessons from my mom, and he 
drove me to and from training, always saying hello to my 
siblings and parents with a smile. He used his college degree 
to further con my parents of his positive role in my very 
impressionable life.
    I briefly want to touch on the impact of all this. At 15, I 
was disposable meat. The known 33-year-old child sexual 
predator, when he had torn apart all he wanted, he left my 
picked-over adolescent carcass to decay and rot. My body hurt. 
It hurt so badly. I screamed, sometimes out loud, sometimes in 
writing, sometimes into a bottle, and frequently into over-
training.
    I was about 20 years old when I asked a friend that should 
I die unexpectedly, to rush to my parents' home and recover my 
journals. Even a hypothetical death, I was too ashamed to let 
my parents know I was sexually abused under their purview.
    Bouts of depression came and lingered but never left and 
ultimately I retired from speed skating in December of 2005.
    The first time I remember audibly screaming that I wanted 
to die was in 2006. I was done skating. I was trying to move on 
from the nightmare and, however, the pain inside me only grew. 
Over my flip phone, I screamed to my mother I want to die. I 
was in pain. After graduating from Cornell, I moved to Harlem. 
Countless mornings, I wanted to jump in front of the oncoming 
Metro North train.
    Ten years, marked 10 years after the physical part of the 
child sexual abuse ended, I actively still needed to kill the 
pain. After only one year of living in my Harlem apartment, I 
had to move because the huge window taunted me to jump. It 
wasn't the lure of jumping but the knowledge of falling only 
three stories down to the sidewalk would not end my pain. I had 
to move.
    In 2012, I reached a bottom. My mom sat next to me and as I 
sobbed in pain, she begged me to tell her how she could help. I 
was in a chair and she sat near my feet, her head on my knees, 
and I finally asked from her what I wanted and I asked my own 
mother to kill me.
    In 2013, I returned to speed skating after a seven-year 
hiatus. I met Claire, a young fearless girl who was the reason 
I knew to tell my story and I knew telling the truth would be 
the right thing to do. I knew the insulting New York State laws 
only opened up me to legal repercussions. I had been through so 
much pain, and I was still decaying in pain. I decided I would 
sacrifice for Claire and all the future Claires.
    I went public as a survivor of child sexual abuse by known, 
respected, and honored Andy Gabel. I've grown to be a strong 
and brave woman, not because of the sexual abuse that I 
endured, but despite the abuse. Do you think I am brave? Many 
praise my bravery, our bravery, bravery for retelling our 
stories, bravery in telling the truth. Please take pause. What 
do you acknowledge as being brave? Standing up against the man 
who sexually abused me 20 years ago is brave. Then please 
recognize the hypocrisy of expecting a child athlete to report 
sexual abuse while it is still happening.
    For many children, it is impossible to disclose molestation 
or rape because children do not have the vocabulary, which was 
just said a minute ago. I did not learn that being molested by 
a 33-year-old man was a crime until I was at Cornell and I was 
27 years old. Over 80 percent of child sexual perpetrators know 
their victim, the child. On average, survivors of child sexual 
abuse do not disclose until their 40s. One in six boys are 
victims of child sexual abuse by their eighteenth birthday, one 
in four girls are victims of child sexual abuse by their 
eighteenth birthday.
    I have three sisters and two brothers. So I am the 
statistic of one in four.
    Can I keep going or should I stop?
    Senator Moran. Please continue.
    Ms. Farrell. OK. I told my story on February 28, 2013. 
Within days, Andy Gabel released a statement in the Chicago 
Tribune acknowledging the sexual inappropriate relationship 
that he had.
    Then came the following statement from Scott Blackmun. ``In 
sport, as in life, we have a duty to everything we can do to 
protect children from abuse at the hands of adults,'' said USOC 
Chief Executive Scott Blackmun. ``We are glad that Ms. Farrell 
chose to tell her story because it makes others who have been 
abused aware that they're not alone and hopefully shine a light 
on the resources that are available to administrators, coaches, 
parents, and athletes to help protect our young athletes.''
    However, when I met with Scott Blackmun in 2013, the then-
CEO of the USOC, specifically asked that I direct athletes to 
report to him and not to the media. The USOC would not look 
into taking Andy Gabel's USA Speedskating membership nor would 
they look into taking him out of the Hall of Fame. The USOC 
would not look into preventing Andy Gabel from coaching, not 
even within speed skating.
    Mr. Blackmun only advised I return home to my state of New 
York and deal with the situation. Mr. Blackmun made it crystal 
clear there was nothing he nor the USOC could do for me, 
stating that the USOC did not have such jurisdiction over the 
national governing bodies.
    However, in the midst of the USA Gymnastics shakedown, the 
USOC acknowledged the NGB could be decertified and overtaken by 
the head organization. It certainly seems that the USOC wants 
to pick and choose when to be involved and it only seems to 
want to be involved when it favors the USOC.
    I have spent a large part of the last three to four years 
working to reform the statute of limitations in New York for 
child sexual abuse in a bill called The Child Victims Act. This 
was the impetus for me to launch my organization New York Loves 
Kids. This time in the political arena has illustrated the need 
to not just hear both sides of the story but all sides of the 
story, and I've also learned that the important issues are the 
ones discussed in hearings.
    Again, I would like to thank you for sincerely pondering 
how best to make sports safer.
    The majority of my work is on the state level, but I do 
have three concrete suggestions. First, there really, really, 
really needs to be a higher percentage of athletes that are 
required on the national governing body boards. In my opinion, 
something closer to 50 percent of athlete voices ought to be 
heard. Much like I am here today, based on my experience with 
child sexual abuse, someone with actual speed skating 
experience should be at the table discussing how the 
organization moves forward.
    Following Suggestion 1, the definition of an athlete ought 
to be expanded. Even with my competitive experience, I am aged 
out as being able to run for a position that must be held by an 
athlete. An older athlete doesn't forget too quickly the 
sacrifices being made as an athlete. Also, an older individual 
will bring additional real-world life experience to a position 
which is a valuable attribute.
    And, finally, there is disclosure of sexual abuse. The 
police have to be notified. How are we still living in an age 
of the fox guarding the henhouse? In my opinion, I find it to 
be risky business for the United States Olympic Committee to 
dabble in adjudicating claims of sexual assault, sexual abuse, 
or rape.
    Rather than trying to protect the image of the organization 
or trying to maintain sponsors, I believe the USOC should lobby 
for states to resurrect archaic statutes of limitations on 
child sex abuse laws from Alabama to Wisconsin, from Oregon to 
New York.
    I just want to make one more comment and it's a question 
about if the USOC is any better now that Scott Blackmun has 
stepped down. I just want to point out that a postal worker in 
Colorado Springs was found with a sack of undelivered letters 
and he is facing up to five years in prison and he's fined 
$250,000.
    Scott Blackmun knew that Larry Nassar was a monster. Yet, 
Scott Blackmun still fed young girls in leotards through a door 
knowing full well there was a hungry lion on the other side. 
Over 250 women have come forward. People have died. Families 
have been torn apart. Lives have been largely ruined. Hundreds 
of women have PTSD, depression, anxiety, and trust challenges, 
just to name a few.
    The CEO that looks the other way or strategically wears ear 
muffs is just as much a kingpin in this game as the one 
committing the crime. Institutions need to be held accountable, 
survivors need to be acknowledged. Without policy reform, the 
unjust muzzle will remain bound on children while safeguarding 
the pedophiles to roam free.
    So long as the abusive power continues, the horror in gyms 
and dojos and fields and courts and pools and tracks and 
mountains and ice rinks will not end.
    Thank you.
    [The prepared statement of Ms. Farrell follows:]

          Prepared Statement of Bridie Farrell, Speed Skater 
                        and 2014 Olympic Hopeful
    Thank you Chairman Thune for the invitation to testify before the 
Senate Committee on Commerce, Science, and Transportation's Consumer 
Protection, Product Safety, Insurance, and Data Security Subcommittee 
hearing entitled, ``Olympic Abuse: The Role of National Governing 
Bodies in Protecting Our Athletes''. As a survivor of childhood sexual 
abuse during my competitive years as a speed skater, I am here to speak 
truth to the negligence, and at times exploitation of children. As well 
as to discuss ideas to create safer sport environments for current and 
future children through balanced, purposeful, and effective policy, to 
the best of my ability.
    My name is Bridie Farrell. I hold a bachelor of science in Policy 
Analysis and Management from Cornell University. I am co-founder and 
CEO of NY Loves Kids, Inc. I am 36 years old and reside in Brooklyn, NY 
with my partner Andrew and dog Lexington.
    In 1988/89 my parents enrolled my brother Patrick Farrell and I in 
speed skating with the Saratoga Winter Club. I was 6, smiling, and 
loving everything about racing fast. Ironically, my reasons for being 
here today began around the same time I was just learning to lace up.
Background
    By April 1990 Northern Michigan University'S Human Resources 
Department and Public Safety Department, the United States Olympic 
Committee via the United States Olympic Education Center, members of 
the U.S. Speed Skating Team, and members of USA Boxing knew of the 
sexual misconduct of resident athlete, coach, and employee of Northern 
MI University, Andy Gabel.
    Documents obtained by FOIA request, that are attached to this 
testimony, reveal both an inadequate investigation and a successful 
cover up.
    An individual within the Boxing community witnessed a young, 14 
year old, female (Jane Doe) entering and exiting Andy Gabel's dormroom 
in Mayland Hall at Northern MI University on numerous occasions. Andy 
Gabel was 24 or 25 at this time. In the botched investigation there is 
no record of interviewing Jane Doe nor interviewing Andy Gabel. There 
is also no documentation of contacting the parents of Jane Doe. 
Numerous adults, all men, were made aware of a criminal situation and 
no one alerted the parents of the 14 year old child.
    I will highlight a few sections now. The entire report is amended 
to my testimony.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    A.

    The men leading the investigation acknowledged:

  1.  aware of the severity and

  2.  acknowledge the rights of both parties.

    However the municipal police department is not included in these 
documents--thus not taking the situation as seriously as they know they 
should. Secondly, at no point is Jane Doe interviewed or contacted, nor 
are her parents.
    When these men wrote both parties, I can only wish they had spelled 
out the parties. It certainly reads that the parties that need equal 
rights are the institution and the male abuser.
    B. The report concludes there is insufficient hard evidence. 
However, please read the statement that is included in the report.
    The excerpt below is from the official report and states Lubs who 
is an adult within USA Boxing sees Jane Doe leaving Andy Gabel's room 
late at night, in sleeping clothing, with a blanket, and crying.
    Whey Andy Gabel is asked an explanation word is the he tells her 
they are ending seeing each other. Basic logic backs up one step to: 
they were seeing each other.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    C. Below is a conversation between speed skater Charles King and 
Moore who is involved with the investigation. Additional documentation 
of an inappropriate/illegal sexual relationship.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    D. And for additional information on the inappropriate 
relationship, we have it admitted from Andy Gabel's mouth in the 
following excerpt.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    E. In conclusion:
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    This is where the story of Andy Gabel in sports should end.
    Let me confirm what you're afraid to hear: his career did not end 
here. Andy Gabel went on competing through 1998. He then became 
involved with The Salt Lake Olympic Committee, the President of U.S. 
Speed Skating while I was still an athlete, and finally to the Chairman 
of the ISU where he resigned in 2013. This sexual predator remained in 
speed skating for over 30 years after his behavior was identified.
Bridie's Story
    On February 28, 2013 I confidently sat in the Lake Effect recording 
studio in Milwaukee, Wisconsin with Mitch Teich to record my first 
disclosure on child sexual abuse at the hands and ego of Andy Gabel.
    I was sexually abused at 15 by a 33-year-old teammate in his house 
in Saratoga Springs, NY. I was molested on a blanket he laid out at the 
Saratoga Springs National Battlefield. I was molested in the Saratoga 
Springs spa state park. I was molested in ice rinks. I was molested in 
restaurant parking lots. I was sexually abused on the grounds of the 
United States Olympic Training Center in Lake Placid, NY. I was 
sexually abused in my high school parking lot. I was sexually abused in 
the back hall of my parents' house. I was molested in my driveway after 
early ice training, before the sun had even come up.
    The man who molested me perfected the deceitful art of grooming. He 
established trust within my family. He saw my father as his doctor. He 
sought out piano lessons from my mum. He drove me to and from 
training--always saying hello to my siblings and parents with a smile. 
He used his college degree to further con my parents of his positive 
role in my impressionable life.
    The man who abused me gave me gifts. He gave me his sponsor issued 
Oakley sunglasses. He purchased a $200 ice skate sharpener apparatus 
called a jig, for me at the 1998 Olympic Trials in Lake Placid.
    My strict parents never let us kids drive our wood-paneled family 
station wagon. The man who conned my parents and abused me, let wide-
eyed 15 year old me slip behind the wheel on leather, power seats, and 
drive his Lexus.
    The man who abused me granted me permission to attend my 10th grade 
High School Homecoming Dance, with agreement to skip every after party 
and phone when home. Neither family nor friends knew the leash I was 
on, a leash that got shorter and shorter.
    I distinctly recall lying on my side, the pedophile behind me. He 
pinched my skin below my naval, warning I would have to lose that fat 
to be a successful athlete. I was 15 and 121 pounds. That message is 
seared in my memory. For years following his destructive advice I 
obsessively measured any circumstance on my body--stomach, arms, legs, 
etc. I had a white string measured with knots, tucked inside a black 
and white composition notebook, deceivingly labeled French.
Impact
    At 15, I was the disposable meat of a known 33-year-old child 
sexual predator. When he had torn apart all he wanted, he left my 
picked over adolescent carcass to decay and rot. My body hurt; it hurt 
so badly. I screamed. Sometimes out loud, sometimes in writing, 
sometimes into a bottle, frequently into overtraining.
    When I was about 20 years old, I asked a friend that should I die 
unexpectedly, to rush to my parents' home and recover my journals. Even 
after a hypothetical death, I was too ashamed to let my parents know I 
was sexually abused under their purview.
    Bouts of depression came and lowered, but never left. I ultimately 
left skating in December 2005.
    The first time I remember audibly screaming that I wanted to die 
was in 2006. I was done skating, I was trying to move on from the 
nightmare, however, the pain inside me only grew. Over my flip-phone I 
screamed to my mother, ``I WANT TO DIE.'' I was in pain.
    After graduating from Cornell University I moved to Harlem, NY. 
Countless mornings I wanted to jump in front of the oncoming Metro 
North Train. 10 years after the child sexual abuse ended, I actively 
wanted to end the pain.
    After only a year of living in my Harlem apartment I had to move, 
because the huge window taunted me to jump. It wasn't the lure of 
jumping, but the knowledge of falling only 3 stories down to the 
sidewalk would not end my pain. I had to move.
    In 2012 I reached bottom. My mum sat next to me as I just sobbed in 
pain. She begged me to tell her how she could help. I was in a chair, 
and she sat near my feet, her head on my knees. I finally asked for 
what I wanted, I asked my own mother to kill me.
Disclosure
    In 2013, I returned to speed skating after a 7-year hiatus. I met 
Claire, a young fearless girl who is the reason I knew telling my 
story, telling the truth would be the right thing to do. I knew the 
insulting New York laws only opened me up to legal repercussions. I had 
been through so much pain, I was still decaying in pain--I decided I 
would sacrifice for Claire and all future Claire's. I went public as a 
survivor of child sexual abuse by known, respected, and honored Andy 
Gabel.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    My depression reemerged with the most suffocating darkness in 2015. 
For my safety, all medicine and anything that could be used to overdose 
were confiscated from my possession. In September of 2016, again for my 
own safety, I was not permitted to spend a night alone. Collectively, 
friends arranged who would spend the night at my apartment, ensuring I 
would wake in the morning. I was 34 years old.
    And this January I shook in fear when a scheduled routine 
gynecological exam. January 2018 marks 20 years. It has been 20 years. 
I am still haunted by child sexual abuse.
    I have grown to be a strong and brave woman, not because of the 
child sexual abuse that I endured, but despite the abuse.
    Do you think I am brave?
    Many praise my bravery--bravery in retelling my story, bravery in 
telling the truth.
    Please take pause--what do you acknowledge as brave?
    Standing up against the man who sexually abused me 20 years ago is 
brave. Then please, recognize the hypocrisy in expecting a child 
athlete to report sexual abuse while it is happening.
    For many children it is impossible to disclose molestation or rape, 
because we did not and they do not have the vocabulary. I did not learn 
that being molested by a 33 year old man was a crime until I was at 
Cornell University; I was 27 years old.
    Over 80 percent of child sexual abuse perpetrators know their 
victim, the child. On average survivors of child sexual abuse do not 
disclose until into his/her 40s. 1 in 6 boys are sexually abused by his 
18th birthday. 1 in 4 girls are sexually abused by her 18th birthday. I 
have three sisters and two brothers. I am the statistic: I am the 1 in 
4.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    My story was told on February 28, 2013. Within days Andy Gabel 
releases the following statement \1\:
---------------------------------------------------------------------------
    \1\ http://www.chicagotribune.com/sports/international/chi-
olympian-apologizes-for-alleged-sexual-misconduct-20130301-story.html
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Scott Blackmun of the USOC made the following statements \2\:
---------------------------------------------------------------------------
    \2\ http://wuwm.com/post/exclusive-audio-interview-speedskater-
bridie-farrell-speaks-out-about-sexual-abuse-andy-gabel#stream/0
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    However, when I met with Scott Blackmun, the then CEO of the USOC 
he specifically asked that I direct athletes to report to HIM and not 
to the media. He also made one other comment crystal clear--there was 
nothing he nor the USOC could do for me. The USOC would not look into 
taking away Andy Gabel's U.S. Speed Skating Membership nor Hall of Fame 
spot. The USOC would not look into preventing Andy Gabel from coach in 
other sports--not even within speed skating. Mr Blackmun made it clear 
by suggesting I return to my home state of NY and deal with the 
situation.
    Mr Blackmun also told me that there was nothing the USOC could do--
that the USOC did not have such jurisdiction over the NGBs. However, in 
the midst of the USA Gymnastic shake down the USOC acknowledge the NGB 
could be decertified and overtaken by the head organization. It 
certainly seems the USOC wants to pick and choose when to be involved, 
and it seems only when it favors the USOC.
    I have spent a large part of the past three to four years working 
to reform the statute of limitations in NY for child sexual abuse in a 
bill we call the Child Victims Act. This time in the political arena 
has illustrated the need to hear not just both sides, but all sides. 
I've learned the value in having someone who has experience in the 
field. I have also learned the important issues are the ones discussed 
in hearings--again, I would like to thank you for sincerely pondering 
how best to make sports safer.
    Again, the majority of my work is on the state level, I do have 
three concrete suggestions on how to improve the overall process within 
the USOC.
    First, there really, really needs to be a higher percentage of 
athletes that are required to be on the National Governing Body Boards. 
In my opinion, closer to 50 percent of athletes voices ought to be 
heard. Much like I am here today based on my experiences of child 
sexual abuse, someone with actual speed skating experience should be at 
the table discussing how the organization moves forward.
    Following suggestion one, the definition of an athlete ought to be 
expanded, in my opinion. Even with my competitive experience, I've aged 
out of being able to run for a position that must be held by an 
athlete. An older athlete doesn't forget too quickly the sacrifices of 
being an athlete! Also, an older individual will bring additional real 
world life experience to the position-a valuable attribute.
    And finally, when there is any disclosure of sexual abuse, the 
police must be notified. How are we still living in an age of the Fox 
guarding the Hen house? Why.
    In my opinion, I find it to be risky business for the United States 
Olympic Committee to dabble in adjudicating claims of sexual assault, 
sexual abuse, or rape. Rather than trying to protect the image of the 
organization or try to maintain sponsors, I believe the USOC should 
lobby for states to resurrect archaic statute of limitation laws on 
child sexual abuse from Alabama to Wisconsin from Oregon to New York.
      Is The USOC Better Off Now That Scott Blackmun Stepped Down?
    I would like to bring two criminal cases into this conversation. On 
12/26/2017 Ryan P. Medina a former U.S. Postal worker was arrested in 
Colorado Springs, CO for having a sack letters that were not his. He 
was arrested on Federal charges, faces a $250,000 fine and up to 5 
years in prison.
    On 1/15/2018 Tyshawn Gayle was arrested for allegedly answering ads 
on Craigslist and then stealing from the new roommates. He faces time. 
A total of 10 Craigslist victims have come forward and the arrest was 
able to be made by tips from the community.
    Scott Blackmun knew that Dr Larry Nassar was a monster. Yet, Scott 
Blackmun still fed young girls in leotards through a door knowing full 
well there was a hungry lion on the other side. Over 250 women have 
come forward. People have died. Families have been torn apart. Lives 
have been largely ruined. Hundreds of women have PTSD, depression, 
anxiety, trust challenges, to name a few. The CEO that looks the other 
way or strategically wears earmuffs is just as much a kingpin in the 
game as the one committing the crime.
    Institutions need to be held accountable. Survivors need to be 
acknowledged.
    Without policy reform the unjust muzzle will remain bounded on 
children while safeguarding the pedophiles to roam free. So long as 
this abuse of power continues, the horror in gyms, dojos, fields, 
courts, pools, tracks, mountains, and ice rinks will not end.

    Senator Moran. Thank you.
    Mr. Maurizi.

           STATEMENT OF CRAIG MAURIZI, FIGURE SKATER

    Mr. Maurizi. Thank you for hearing me speak today.
    One of the saddest things you'll hear in almost every case 
where a child was abused by an authority figure in Olympic 
sports is the number of years it took for any action to occur.
    In my case, the abuse began nearly 40 years ago when I was 
13. I reported it to my sports' governing body, the United 
States Figure Skating Association, nearly 20 years ago, and my 
abuser was suspended from coaching less than two months ago.
    My story has a case history of the power of abusers and 
organizations to silence powerless child victims of sexual 
abuse in the relentless pursuit of money and medals.
    Like many of these stories do, it began with a child 
chasing an Olympic dream. I was 13 years old and beginning to 
skate competitively in figure skating. I was thrilled to start 
working with Richard Callahan, who was the area's top coach and 
later became one of the most successful coaches of world and 
Olympic champions.
    Richard took an immediate liking to me, spending hours in 
his office listening to me talk about my hopes, dreams, and 
challenges, and offering the advice of an older mentor. Years 
later, I realized this was part of a grooming process that 
resulted in sexual abuse that began when I was 15 and lasted 
into my early twenties.
    During that time, we achieved considerable professional 
success. As a skater, I was a member of Team USA. Together, we 
coached some of the most prominent figures in our sport, 
including Gold Medalist Tara Lipinski.
    Like many survivors of child sexual abuse, I had a deep 
personal connection and an undying loyalty to my abuser. It 
took years of soul searching and self-loathing, plus the 
support of my wife and family, before I fully recognized what 
he had done and mustered the courage to come forward and report 
it.
    When I did, I was treated with the same disdain, 
disrespect, and disbelief by the U.S. Figure Skating 
Association as many of the Larry Nassar victims who tried to 
report him to USA Gymnastics or Michigan State University.
    My character and motives were attacked on the pages of the 
New York Times by my abuser. Several other skaters came forward 
to publicly report allegations of sexual misconduct by 
Callahan.
    The U.S. Figure Skating Association took no action against 
him, claiming that I had waited too long to report him. The 
rule at the time was I had a maximum of 60 days to report. They 
refused to even conduct an investigation and he was allowed to 
continue coaching. I went on with my life and said nothing for 
20 more years. In January of this year, something extraordinary 
happened. Hundreds of brave young women got up in public 
Michigan courtrooms and gave heart-wrenching testimony of the 
abuse they suffered at the hands of an Olympic team doctor. 
Olympic Medalists, including Jamie Dantzscher and Jordyn 
Wieber, revealed the pattern of disbelief and disrespect by 
their Olympic governing body, USA Gymnastics that was so 
similar to what I had experienced from U.S. Figure Skating that 
it made the hair on the back of my neck stand up.
    These brave women gave me the courage to speak out again 
and I wanted to publicly thank them for it today.
    I contacted U.S. Center for Safe Sport two months ago. They 
promptly opened an investigation and suspended Richard Callahan 
from coaching. It is my hope that he will be banned for life.
    The U.S. Olympic Committee and its governing bodies are 
chartered by our Federal Government and this Committee has 
oversight authority. I respectfully ask you to find out why the 
USOC did nothing for decades while reports of child sexual 
abuse in many Olympic sports were ignored. Who is responsible 
for this tragedy and how will they be held accountable?
    I love my sport and the Olympic movement. I still coach 
kids that have the Olympic dream, some of whom achieve it. 
Every child in every sport needs to know that the adults in 
charge have a duty to keep them safe. If they see or experience 
abuse, they must be assured that they will be believed and we 
will take action.
    The Olympic Creed teaches us that the important thing in 
the Olympic Games is not to win but to take part, as the most 
important thing in life is not the triumph but the struggle.
    No child should ever have to sacrifice his or her innocence 
as part of their struggle to represent our nation in the 
Olympics.
    Thank you for your leadership and concern.
    [The prepared statement of Mr. Maurizi follows:]

           Prepared Statement of Craig Maurizi, Figure Skater
    One of the saddest things you will hear in almost every case where 
a child was abused by an authority figure in Olympic sports is the 
number of years it took for any action to occur.
    In my case, the abuse began nearly 40 years ago when I was 13, I 
reported it to my sport's governing body, The U.S. Figure Skating 
Association, nearly 20 years ago. And my abuser was suspended from 
coaching less than two months ago.
    My story is a case history of the power of abusers and 
organizations to silence powerless child victims of sexual abuse in the 
relentless pursuit of money and medals.
    Like many of these stories do, it began with a child chasing an 
Olympic dream. I was 13 years old and beginning to skate competitively 
in figure skating. I was thrilled to start working with Richard 
Callahan who was the area's top coach and later became one of the most 
successful coaches of World and Olympic Champions.
    Richard took an immediate liking to me, spending hours in his 
office listening to me talk about my hopes, dreams and challenges and 
offering the advice of an older mentor.
    Years later, I realized this was part of a grooming process that 
resulted in sexual abuse that began when I was 15 and lasted into my 
early 20s.
    During that time, we achieved considerable professional success. As 
a skater I was a member of Team USA. Together we coached some of the 
most prominent figures in our sport, including gold medalist Tara 
Lipinski.
    Like many survivors of child sexual abuse, I had a deep personal 
connection and an undying loyalty to my abuser. It took years of soul 
searching and self-loathing plus the support of my wife and family 
before I fully recognized what he had done and mustered the courage to 
come forward and report it.
    When I did, I was treated with the same disdain, disrespect and 
disbelief by the U.S. Figure Skating Association as many of the Larry 
Nassar victims who tried to report him to USA Gymnastics or Michigan 
State University.
    My character and motives were attacked on the pages of the New York 
Times by my abuser.
    Several other skaters came forward to publicly report allegations 
of sexual misconduct by Callaghan.
    The U.S. Figure Skating Association took no action against him, 
claiming that I had waited too long to report him. The rule at the time 
was I had a maximum of 60 days to report. They refused to even conduct 
an investigation and he was allowed to continue coaching. I went on 
with my life and said nothing for twenty more years.
    In January of this year something extraordinary happened. Hundreds 
of brave young women got up publicly in Michigan courtrooms and gave 
heart wrenching testimony of the abuse they suffered at the hands of an 
Olympic team doctor.
    Olympic Medalists including Jamie Dantzscher and Jordyn Wieber 
revealed a pattern of disbelief and disrespect by their Olympic 
governing body, USA Gymnastics that was so similar to what I 
experienced from U.S. Figure Skating that it made the hair stand up on 
the back of my neck.
    These brave women gave me the courage to speak out again and I want 
to publicly thank them for it today,
    I contacted the U.S. Center for Safe Sport two months ago. They 
promptly opened an investigation and suspended Richard Callahan from 
coaching. It is my hope that he will be banned for life.
    The U.S. Olympic Committee and its governing bodies are chartered 
by our Federal government and this committee has oversight authority. I 
respectfully ask you to find out why the USOC did nothing for decades 
while reports of child sexual abuse in many Olympic sports were 
ignored. Who was responsible for this tragedy and how will they be held 
accountable?
    I love my sport and the Olympic movement. I still coach kids that 
have the Olympic dream some of whom achieve it. Every child in every 
sport needs to know that the adults in charge have a duty to keep them 
safe. If they see or experience abuse they must be assured that they 
will be believed, and we will take action.
    The Olympic Creed teaches us, ``The important thing in the Olympic 
Games is not to win but to take part as the most important thing in 
life is not the triumph but the struggle . . .''
    No child should ever have to sacrifice his or her innocence as part 
of their struggle to represent our Nation in the Olympics.
    Thank you for your leadership and concern.

    Senator Moran. Thank you, and thank all of our witnesses so 
much for your testimony.
    First of all, let me respond by saying I indicated this 
with a few of the Olympians several weeks ago. I just don't 
understand. I don't know people who don't respond to the plea 
of a child for help. Whether you know that person or not, 
whether you have a responsibility, a legal or other 
responsibility, I don't know in my lifetime experiences how, 
when one hears the stories that you have told at ages in which 
we all have a responsibility to you, that there's not a 
response of help, a police report, a person of authority who 
responds to make sure that an individual is safe.
    I don't know how we legislate that, but I want to certainly 
make the effort to make certain that no one's plea for help 
goes unanswered by the person that they make their point to, 
the person they make their case to, and so I want to explore 
what needs to happen going forward.
    First, let me try to understand what the circumstances are. 
So we have three sports represented here, figure skating, speed 
skating, and gymnastics.
    In light of the statements that you've made over time, I 
assume people will have contacted you, will have told you what 
they've experienced. So explain to the Subcommittee, if you 
can, how much broader this is. Let me ask the question in a 
less-biased way.
    Do the problems that you describe extend beyond the sports 
that you participated in within amateur sports?
    Ms. Farrell. Sure. I can start by answering that. I wish 
the answer was no, but clearly it goes across all sports, 
summer, winter.
    I was in Colorado Springs a few years ago just visiting a 
friend and I saw some athletes returning from a competition 
near--Taekwondo athletes. So they had their helmets and their 
guard on. So I knew who they were. Taekwondo is a sport that is 
played with horrific sexual abuse and I went up to these 
athletes and I said to them, hey, if you guys ever need 
anything, you need to talk to somebody outside of your sport, 
you can call me. My name's Bridie Farrell, and they all were 
just like, yes, we know who you are. OK. Right.
    So like I've never met these people, I had no idea who they 
were, but in the sports where it's known about the problem and 
the people that have been identified and are repeatedly 
reported and nothing is done against them, I was able to reach 
out in that capacity and someone relayed it. So on a very 
tangible way, that's one example, I would say.
    Senator Moran. Are there no examples of where, when an 
athlete reported sexual misconduct, that the process, the 
system worked to protect that athlete? Those examples don't 
exist?
    Ms. Farrell. I've never heard of any.
    Mr. Maurizi. I can answer that, and I would have to say 
that in some instances, it has worked, in all fairness.
    I met with two executives from U.S. Figure Skating at the 
Olympics in South Korea regarding my particular situation. I 
was informed for the first time since 1999 when I gave my first 
report, if you will, that as a result of my grievance, we 
called it, even though mine wasn't even heard, that things were 
put into place to begin the process of stopping this and as 
early as one year after I gave my testimony was denied, there 
was a first perpetrator that was caught and suspended from U.S. 
figure skating.
    And so there has been steps, at least in my sport, taken to 
try to address this issue.
    Senator Moran. You in particular have utilized Safe Sport, 
and is it making the difference today that we would want to 
see?
    Mr. Maurizi. Yes and no. The reason I say that is, yes, in 
respect of the fact that my allegations were given credence and 
it was the first time in 20 years. I had just assumed that this 
is the way it was and I was just going to go on with my life. I 
had to make a choice because I still work in the business and 
so I was heartened by the seriousness that they took my 
allegation. They were very supportive and for that I'm 
grateful.
    However, my fiance asked a very important question of them 
while I was being interviewed and her question was, what 
happens after this situation ends? Let's say, you know, you 
find him guilty, does he go to jail? Does he serve any type of 
penalty beyond not being able to coach in a sport? And the 
answer was no, that, in fact, that's really about it, and then 
I made a point to the people there and other people who've 
asked the question.
    My role right now is Director of Figure Skating in a rink 
in New Jersey. I'm in charge of hiring and firing coaches. If I 
wanted to today, I could hire this man to teach at my rink. 
Essentially, all that ban, at least in my sport, a ban from 
U.S. figure skating means is that Richard Callahan can't attend 
U.S. figure skating-sanctioned competitions, but what he does 
on a day-to-day basis that U.S. figure skating has no 
jurisdiction and so as shocking as that is, just because he's 
banned doesn't have enough teeth, in my opinion, and one of the 
reasons I'm here today is to put that forth to you and 
hopefully somebody can figure out a way how more teeth can be 
put into these situations and not allow him near children.
    Ms. Farrell. One aspect of the Safe Sport which I think is 
important to recognize is that Safe Sport is a byproduct of 
what the U.S. Olympic Committee wanted to happen. They're 
supposed to investigate and look into any sort of allegations 
that someone makes.
    So, again, let's go back to Taekwondo where there are 
allegations against the Number 1 athlete and there is very, 
very concrete evidence. However, they have to be pretty sure 
that these things actually happened or else Safe Sport, USOC, 
is going to be sued for taking action against this athlete.
    Well, the penalty would have been that he would not have 
been able to compete in the world championships, which would be 
a big bummer for him, right, like it's the biggest competition 
in the year, everybody wants to compete at world, but it's much 
bigger than that because how that athlete does at worlds can 
impact how many they're allowed to have, say, where they start 
in the World Cup next season or how many if it's a year before 
the Olympics, it might impact how many judo players are allowed 
to compete for Team USA, right.
    So it's not just like it's a penalty against that one 
individual. It's a penalty against potentially much more in the 
sport and, quite honestly, in many sports, I would say the 
three at this table, happen more than every 4 years and so the 
funding is low and without earning medals, you don't get the 
funding that you need and if you only have one good athlete, 
you got to be really sure that this guy is wrong before you 
bench him and don't let him go to the world championships.
    So having Safe Sport as your disciplinary board, although 
they say are separate, you have to realize the implications of 
taking action against one athlete, the trickle effect is much 
more, if that makes sense.
    Senator Moran. Yes, that does make sense. Thank you for 
answering my questions. I'll have more later, but let me now 
turn to the Ranking Member.
    Senator Blumenthal. With your permission, Mr. Chairman, I'm 
going to yield to Senator Hassan, who has a scheduling issue 
and I'll go after.
    Senator Moran. Senator Hassan is recognized.

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Thank you very much, Mr. Chair, and for 
your courtesy, Ranking Member Blumenthal.
    Thank all of you for being here. To all of the witnesses, I 
am so profoundly grateful for your leadership and your courage 
in revisiting some of the most painful moments of your life, 
all in order to help prevent others from enduring what you guys 
have endured. You are world-class athletes, you're heroes, and 
you're survivors, and your bravery here today to share your 
stories deserves our gratitude and respect to be sure but I 
just also want you to know what a change you are making for 
future generations of athletes as well as current athletes and 
what a great example, your standing up and speaking out is 
giving to so many other people who are going to also need to 
muster bravery and courage in their lives for one reason or the 
next.
    I just thought maybe each of you could take a minute to 
address two questions I have, which will likely take the rest 
of the time I have for questions.
    Given your experiences, I'd like to hear, if you can 
identify this, who you believe to be most responsible for 
allowing these abuses to continue and also what cultural 
factors in your training fostered an atmosphere in which these 
abuses could begin and continue for so long?
    Maybe, Mr. Maurizi, I could start with you.
    Mr. Maurizi. Who would I hold accountable?
    Senator Hassan. Who do you think is the most accountable, I 
mean?
    Mr. Maurizi. Two answers come to my mind. First and 
foremost, when I decided to file a grievance, I hired an 
attorney to guide me through this. My attorney's first advice 
was to contact the local authorities and to report a crime.
    The statute of limitations had run way past by the time I 
reported the crime. I was 36 years old. I believe at the time 
in Michigan where I was living, the statute was 26. I was also 
in New York and 26 was as old as I could be. I couldn't have 
fathomed have even dealing with that until much later, to be 
honest with you, so that was one thing.
    Senator Hassan. Yes.
    Mr. Maurizi. Second thing are the various rinks and figure 
skating clubs that I was a member of and participated in. My 
coach, I learned later, had to move from club to club to club 
because allegations surfaced about his treatment of his 
athletes.
    Senator Hassan. But none of them shared with other rinks?
    Mr. Maurizi. They did.
    Senator Hassan. Oh, they did?
    Mr. Maurizi. They did share with other rinks.
    Senator Hassan. OK.
    Mr. Maurizi. They shared rumors that they heard, but it is 
difficult to prosecute somebody on rumors, I guess. So 
everybody knew about it.
    For example, when Richard moved to Detroit, the Detroit 
Skating Club, a former student of mine told me that she was 
told by the officials there that he wasn't allowed inside the 
men's locker room.
    Senator Hassan. OK.
    Mr. Maurizi. He was still hired.
    Senator Hassan. OK. I don't want to interrupt any of you, 
but we have limited time. So I'm just wondering, Ms. Farrell 
and Ms. Wieber, if you can take a stab each at this.
    Ms. Farrell. So in terms of who, I would say it really goes 
back to the men that are listed in the report that was given 
out. They knew about it. There was the same thing with the man 
that repeatedly molested me. He was known to be this person, 
and there was actually a report.
    Senator Hassan. OK.
    Ms. Farrell. It was swept under the rug and the culture 
that has to change, is the idea that we are so brave to be here 
it solidifies what the problem is. That is what shows how hard 
it is.
    Senator Hassan. Right.
    Ms. Farrell. And then you're expecting a kid to come 
forward and say things that they do not know the words that 
exist for, right?
    Senator Hassan. Yes.
    Ms. Farrell. So it's a culture, it's just a cultural issue, 
and it's the idea that people are finally speaking up, even 
look at Time Magazine. People are finally speaking up, honestly 
that's not true. We've been yelling and no one's been 
listening. So I would say the ears of all the adults out there.
    Senator Hassan. Thank you.
    Ms. Wieber.
    Ms. Wieber. When I think about who's most accountable, 
obviously, as I said, USA Gymnastics, USOC, Michigan State, but 
if you look a little bit deeper than that, I think it all 
started when the Karolyis, who, you know, brought USA 
Gymnastics to where it is now, when they came over from Romania 
and they brought a lot of those training styles over, and a lot 
of the abusive training styles, and I think the USA Gymnastics 
started to see that it was winning medals and they were getting 
lots of money and then, as a result, I think that that training 
style kind of seeped into the personal coaches across the 
nation and now that's the normal way of coaching and you can 
ask any elite gymnast. They know exactly which coaches across 
the country are the most abusive, but people will still send 
their athletes there or their kids there because they know they 
want to be successful and that's their best chance of making 
the Olympic team.
    So that's what they've made us believe, that that's the 
only way you're going to win medals and be successful is by 
having coaches that will beat you to the ground like that. So I 
think the cultural issues start with the Karolyis and then that 
training style.
    Senator Hassan. Thank you.
    And with the Chair's indulgence, could we hear briefly hear 
from Ms. Dantzscher, too? Thank you.
    Ms. Dantzscher. As far as the most accountable, I would 
obviously agree with Jordan. It's very similar to my 
experience.
    And with regard to how people say this, that I'm so brave 
and I appreciate what you say because I've never felt brave. I 
felt like I was doing the right thing and so hearing Mr. 
Maurizi's testimony made me cry because that's one of the 
reasons why I came forward was to tell people it's OK to speak 
up.
    Senator Hassan. Yes.
    Ms. Dantzscher. And the other thing is I guess the cultural 
problems in gymnastics are there are so many--as you said, 
Larry Nassar saw the coaches' abuse almost on a daily basis, 
and he didn't report their abuse and vice versa. So they 
protected each other.
    I obviously want to come forward because I was sexually 
abused and so I wanted to do the right thing and I wanted to 
protect others and it shouldn't take having to have the 
experience to do the right thing because I wonder if this would 
have happened to anyone that was running USAG, any one of their 
daughters or their sons or any of their kids, you know, would 
they have reacted differently, you know?
    Senator Hassan. Look. Thank you all very, very much, and I 
look forward to reading and hearing some more of your 
testimony.
    Thank you again to the Chair and Ranking Member for your 
courtesy.
    Senator Moran. Senator Blumenthal.
    Senator Blumenthal. Thank you. Thank you again.
    Let me ask you. Do you think this kind of abuse is still 
going on in gymnastics or skating?
    Ms. Dantzscher. Yes, I know for sure it's still going on. 
When you have USA Gymnastics, the organizing governing body, 
that's the leadership and that's how they decide to lead, 
that's going to trickle down and be a failed system completely.
    A lot of people will say, the abuser, oh, not Larry, he's 
so nice, and everyone liked him and trusted him, and it doesn't 
matter how nice they are. In fact, it's usually the nicest 
ones. That's how they groom. That's how they manipulate 
everybody. That's what they live for and that doesn't mean that 
it should be OK for him to be in a room alone with children. It 
shouldn't matter how nice they are.
    Gymnastics also is a very hands-on sport. So we actually do 
need, you know, males and females that know how to spot and 
help us learn skills when we're younger, but I definitely think 
there needs to be policies that change how they put their hands 
on us and when there's something called ``body shaping'' that's 
just so normal.
    There was times Larry was touching me over my leotard and 
in the middle of the gym in Texas at the training center and 
everybody was there and no one thought anything of it because 
it seemed normal in gymnastics and things like that need to be 
changed.
    Ms. Wieber. I think the interesting thing, as well, is with 
USA Gymnastics, obviously the Board of Directors all resigned, 
but the people who are on the National Team staff or in charge 
of the training camps every month, the ones who have the most 
interaction with the athletes are still there. It's the same 
people in charge and I don't think that they're innocent at 
all. I think that they've seen things and haven't said anything 
or they knew things at one point and didn't do the right thing 
and I feel like there needs to be an entirely new staff in 
order for this to stop.
    Senator Blumenthal. Ms. Bridie Farrell, how about speed 
skating?
    Ms. Farrell. To be honest, I think speed skating is pretty 
good on the whole in this. I mean, I came forward and women 
came forward after me, but all for the same person.
    I know of one person who is coaching and was accused of 
something. So USA Speed Skating quickly took him out of a 
coaching position and gave him a position as being an athlete, 
doesn't really solve the problem, right.
    So I would say within speed skating, it's a very, very 
small sport, small community, and most of what I see that it is 
OK.
    Senator Blumenthal. And how about in figure skating?
    Mr. Maurizi. I'm sure that it's--rampant may be a bit 
strong, but I'd say it's very prevalent in the sport.
    Coaches at the grassroots level, in the trenches, if you 
will, operate almost in complete autonomy. There are no 
mechanisms in place, with the exception of if you go on a 
website and you read the things not to do. There's no 
enforcement. I think that without any enforcement, people are 
able to do as they please.
    Senator Blumenthal. What is shocking to me is not only that 
this kind of predatory abuse happened, but that it is ongoing. 
It's continuing, even after all of the shocking revelations, 
even after Larry Nassar has been sentenced to 175 years, even 
after some of the marginal changes that have been made in the 
sport, it continues, according to your testimony.
    If you were advising parents as to how to avoid this 
scourge, this continuing scourge for their children, what would 
you say to them?
    Ms. Dantzscher. I think one of the things I really want to 
do is go to different gyms around the country and talk to gym 
owners, parents, and the children and bring more education and 
awareness about the subject, Number 1.
    I think in gymnastics the parents are often encouraged not 
even to watch practice. They don't want them to be too 
involved, not to ask too many questions, and when I was 
coaching, I always--that's their child. They're allowed to ask 
whatever question they want. So I think just looking for those 
red flags. If they tell you not to watch your kid train or 
you're not allowed to ask questions, I don't think that's a 
good sign right there, but I would definitely tell them, you 
know, to look for those things, and even if you trust this 
coach and he's the nicest person in the world, don't trust them 
too much, don't let them ever be alone with them.
    Senator Blumenthal. Especially if they're offering favors 
or food or visits to their rooms. You've described, all of you 
have described, I think, a grooming process, correct?
    Ms. Wieber. I think my mom experienced some of the same 
things. Even though I was the one abused, she was just as 
manipulated by somebody like Larry, and I think aside from 
Larry, there's so much intimidation that goes on between 
parents and coaches and parents and USA Gymnastics.
    Our parents were allowed to travel to our meets but we 
weren't allowed to see them ever and they're just basically 
told not to ask any questions, not to argue because obviously 
they want the best for their children. They want us to be 
successful and they feel like they should be able to trust 
these organizations but clearly they couldn't.
    I think there are just so many different levels of 
intimidation going on. I don't feel confident that our parents 
should be able to trust the governing bodies.
    Ms. Farrell. For me, this is a really tricky question 
because I still love speed skating and sports and everything. I 
put my kids in speed skating. I still think it's great. I think 
that the majority of athletes and coaches are wonderful people 
and are not child molesters, but every child molester would 
love to be a coach, right. So that's a really, really 
disturbing sentence.
    But I think it's also important to recognize that the 
majority of child sexual abuse is from people within the home 
and people we know. It's more within families and coming from 
the sports community so I think that it's really important to 
not bounce too far and for kids that are being sexually abused 
at home, that 30 minutes they have with that coach might be the 
only 30 minutes they can pretend that they actually have a dad, 
right. So there are two sides to it.
    In speed skating, it's a very technical sport. So you have 
blades that are bent and only go left. They're offset on your 
foot and they're rocked. They're not actually flat, depending 
on the ice surface and the humidity in the rink. All these 
things will change and so you'll change your skates, your 
blades, and you'll go to your coach's room to do this and there 
was never an issue with him. I can list out thousands of people 
that were so helpful to my speed skating career and then I can 
list out a few that were very, very problematic.
    So I think that the idea of kids being able to tell their 
parents is one thing for sure. I've told my parents many times 
and I'm not sure it's set in yet. So I think kids really need 
to somehow develop a relationship externally where they're like 
an aunt or an uncle that they can tell these things to because 
parents don't want to hear it as much as the governing bodies 
don't want to hear it as much as no one wants to hear it, 
right.
    What I went through was really, really awful, but the 
competing and the camaraderie and all of that was also quite 
amazing and so I think it's important just to keep that in 
mind, as well.
    Mr. Maurizi. I've been coaching now for almost 30 years and 
I can tell you many war stories the coaches talk about amongst 
each other about the horrible parents that we've had to deal 
with, that they, you know, infiltrate this, they talk about 
that, they talk in the lobby. We call it lobby talk where it 
influences their ability to make money because maybe they want 
to switch coaches or something like this.
    And so a lot of coaches don't like the parents to be in the 
rink to watch. They even have talks with them about not being 
in the rink and so they can do their work not overanalyze.
    I was one of those people for a long, long time because I 
was, you know, young and I thought I was going to change the 
world but I made a big about face, if you will, and I find it 
very easy to be able to treat an athlete the correct way, even 
if the parents are watching. I feel it's not difficult to allow 
the parents into the room if you're going to change the blade 
or you do it in a public place.
    I remember talking to somebody about how things are done in 
figure skating and his jaw dropped. He says you do what, you do 
what? If you take one step back and you apply common sense to 
interpersonal relationships, it's really not that difficult to 
do things the right way.
    We have some cultures inside of our own sports of ways that 
we've done things for years and years and years that for us is 
completely normal but if I told you about them, you'd be 
shocked, one of them being the going into the hotel room. For 
us, this is normal. It's no big deal, but I'm sure there has 
got to be a couple people in this room that say what, a young 
teenage girl walks into the adult male's hotel room and it's 
fine? That for me is something to think about.
    Senator Blumenthal. Let me thank you all. I've gone way 
over my time and I apologize to the Chairman, but, you know, we 
can't eradicate all the evils in the world and a lot of people 
come to us and say, well, we made a mistake, we need to do 
better, but there are clearly systematic failings here in the 
United States Olympic Committee that need to be addressed, not 
just with kind of admonitions but making structural reforms, 
and you said, I think it was Ms. Bridie Farrell, one of you, 
that we have responsibility because it's on us, the U.S. 
Congress, which has oversight authority over the United States 
Olympic Committee, and so your stories and your admonitions and 
your testimony that this scourge is continuing are a mandate to 
us that we need to take steps to crack down.
    Thank you.
    Ms. Farrell. Can I mention one more thing?
    Senator Moran. Yes, ma'am.
    Ms. Farrell. I think something else to consider when 
looking at so many different sports is that, for example, speed 
skating is sort of different in that men and women train 
together and you can be good when you're young and good when 
you're old. So I was good when I was 15 and then I took 7 years 
off and I was good when I was 22 and men and women train on the 
same sheet of ice.
    I mean, you're not going to see that at different levels or 
that kind of thing. So then you're going to have men and women 
sharing locker rooms and the things that we would do and 
change, everyone would be like that's just weird, but it has 
always been that way.
    So I think when you guys go back and are thinking about it, 
there are just so many different dynamics. If you just think 
locker rooms, you just think men in the locker room, there's 
just so much more to the reach of the different sports.
    Senator Moran. Ms. Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you.
    First of all, let me just say thank you to the Chairman for 
holding this hearing today. I know Senator Lee and I and a 
number of committee members have requested this, so appreciate 
the conversation today, and then like my colleagues, I want to 
echo thank you all for being here. Your voices will make that 
change, will make a difference and help others and that's one 
of the things I want to talk about.
    You know, I spent prior to coming to the Senate, gosh, 10 
years as a prosecutor working to protect children from sexual 
predators. What I have seen and heard here today unfortunately 
is a system failure that has allowed these predators to thrive 
and you've talked about it.
    The grooming that occurs, the keeping the parents out, and 
one issue that I want to talk specifically about, because I 
only have about 5 minutes, is this notion that of children, 
sometimes there's this thought they should be asking for help, 
but when you're a child and you don't know any different, this 
becomes your norm. So you don't know that you need to ask for 
help and when you do figure that out, is there somebody that 
you can reach out to for help? That's what I see happening here 
and so what I would love from the four of you your thoughts.
    What I have found is sometimes it helps to have an 
advocate, somebody who is there with the athletes, somebody 
that particularly our child athletes become familiar with, 
knowing that it's somebody that is going to advocate on their 
behalf for everything that you've just talked about.
    Do you think if we were looking at implementing and working 
with the USOC, that we looked at having child advocates amongst 
the system, that that would be helpful and that would have 
helped you and/or will help other children that are coming 
through the amateur sports to help them address their needs? 
Let me just open it to all of you.
    Ms. Wieber. I absolutely think that's necessary. With USA 
Gymnastics, we had an athlete representative who was also on 
the Selection Committee. So she was supposed to be our 
advocate, but she was also the one deciding whether we made the 
team, whether we would go compete for Team USA.
    So even if she would be there to advocate for us, we didn't 
want to tell her anything because we were scared it would ruin 
our chances, which we know it probably would have. So I feel 
very strongly that that has to be somebody who is not on the 
Selection Committee, who is totally on the athletes' side and 
that's their main role, is making sure that we can trust them 
and they'll stand up for us.
    Ms. Dantzscher. Maybe even, because I had a similar 
experience with my athlete rep, I don't think she was on the 
Selection Committee at the time, but we definitely couldn't 
trust her. Everything we told her, she'd just run back and tell 
them and we would just get in more trouble.
    So maybe an athlete rep could be someone from a different 
sport because I think it is a good idea that it's somebody 
who's not so close because it seems, if they're working for 
them, they're working with them.
    But I did want to mention, this might be a little off your 
question, but really quickly, one of the other issues I found, 
so as I was working with another coach I was coaching with him, 
and I started seeing things that I wanted to be in denial about 
and I saw that he was touching the kids inappropriately when he 
was spotting, and I didn't know what to do and when I finally 
decided to report it to the police, I wanted to be anonymous 
and they wouldn't allow me to be anonymous and they wanted to 
interview the children and I was like that's not going to work. 
Some of these kids are five and it's like five to 16 years old 
and they don't even know. They're not even aware that they're 
being abused right now.
    And so I wanted to bring that up because I think that's 
another avenue to look into, is how, when it is reported, how 
does the investigation go down, because, you know, these are 
highly skilled manipulators and, you know, this one particular 
one had a family and it's like it's his word against theirs and 
if you can't prove it, you know, it destroys a lot of lives and 
that's just something I wanted to point out because I couldn't 
go through with the full report because of that.
    Senator Cortez Masto. Thank you. I agree, and I think and 
just from my experience, I know many law enforcement agencies 
have specific units that just focus on child sexual abuse. So 
that the investigators and the prosecutors know how to talk and 
relate and do that type of investigation but not all have the 
resources to do so.
    But I agree that is part of the issue here that I have 
seen, is this willingness to come forward but at the same time 
law enforcement needs enough information so that they can take 
action because once you go to law enforcement, it's a criminal 
action. So they have to be able to investigate it from a 
criminal perspective and that means going through all of those 
hoops. So there is a disconnect and we've got to figure out how 
we connect that. You're absolutely right.
    Let me ask you this, another question very quickly because 
I'm actually out of time. I just realized that. So I have other 
questions to follow up on, but I will submit those for the 
record.
    But let me just say this. Thank you again. I look forward 
to the opportunity to work with you. I am committed to making 
change however we can, systemic change, and I am looking 
forward to the USOC coming here along with the National 
Governing Bodies, and folks from Michigan. They should be at 
the table here and they should be answering our questions.
    So thank you again for being here.
    Senator Moran. Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman. Thank 
you to all of you.
    I think I've seen you, Ms. Wieber, before and have worked 
through the Judiciary Committee and was a sponsor of the bill 
with Senators Feinstein and Grassley and we introduced to 
prevent these types of tragedies from occurring in the future.
    I'm also the Co-Chair of the Olympic Caucus and want our 
Olympics to be a wonderful place to be for girls and young 
people. A little side note. We're proud of the Women's Hockey 
Team and Minnesotans' role in that, but your story makes it all 
not something to be proud of and we want that to change and so 
if you didn't come forward, I don't think we would be where we 
are and I want to thank all of you for your courage in coming 
forward.
    OK. So, Ms. Farrell, in your testimony, you emphasized that 
reporting these crimes to local law enforcement must be a 
routine step. Oftentimes what we see in these is there's no 
encouragement to go to local law enforcement. I'm a former 
prosecutor, like Senator Cortez Masto, and I know how important 
that is if you're going to make this work.
    The Protecting Young Victims from Sexual Abuse Act spans 
mandatory recording requirements to include adults affiliated 
with USA Gymnastics or similar organizations.
    Ms. Farrell, how can we ensure recording requirements are 
well understood and universally practiced, so people know what 
they're supposed to do?
    Ms. Farrell. I think that after the wake of USA Gymnastics, 
that people across the country are wondering what to do and 
what to do with our kids in sports and everything like that. So 
I think it's a beautiful time to work on this legislation and 
then have a PSA and let people know that we've gone to our 
authorities in years past and it never went to the police, but, 
say, let people know that this is what should be expected as 
well as there should be some sort of repercussion if that 
doesn't happen.
    Senator Klobuchar. That's part of why the crimes went 
unreported for so long.
    Ms. Farrell. Right. And they just wanted to take out the 
statute of limitation clock, then they're off the hook, but, I 
mean, how do you make people actually do that? I think you have 
to change the incentives structure and as long as the insurance 
companies are paid this amount for sex abuse and they know that 
statute of limitations is this long and people don't report, 
then they hedge those bets, but as soon as you can change the 
incentive, which it seems in this country is the only way is 
with the dollar, right?
    Senator Klobuchar. Mm-hmm.
    Ms. Farrell. So I think until there is something that's 
going to force these governing bodies to change their behavior, 
I don't know how else to get them to change.
    Senator Klobuchar. Does anyone else want to talk about why 
it's difficult for people or was difficult for them to come 
forward and this went on so long because of that, besides the 
not telling you you should go to law enforcement? Ms. Wieber?
    Ms. Wieber. Yes. I've already mentioned some things about 
this, but I think with gymnastics there's this culture of 
silence and we are afraid that if we speak out it's going to 
ruin our chances of reaching our goal.
    I mean, the window of opportunity for a gymnast is so small 
with just the nature of our sport and our age and everything, 
but also I think it starts when we're--I mean, I started 
gymnastics at four years old and by the time I was seven, if I 
was late to practice, I had to climb the rope. There's a rope 
that goes from the floor to the ceiling. So right from the 
beginning, this culture of fear is instilled if you don't do 
something, there's always a punishment. Even when we were 
injured, we were scared to tell our coaches. I was terrified if 
my ankle started hurting to tell my coach because I knew he 
would be mad at me and then I had to go see the doctor.
    Senator Klobuchar. It's part of the whole culture, right?
    Ms. Wieber. It really is, yes.
    Senator Klobuchar. And then one of the ideas of the Olympic 
Committee's going to work to give athletes more representation 
in governance decisions and that they have a seat at the table.
    Maybe does anyone have recommendations on ways to enhance 
the role of athletes within the U.S. Olympic Committee and 
National Governing Bodies of Sports? Anyone? Ms. Farrell? Mr. 
Maurizi?
    Mr. Maurizi. How to do it? I mean, certainly the number of 
representatives should be vastly increased. I've always said at 
least in the figure skating world that the officials stay in 
the nicest hotels, they get the best accommodations, they have 
the most comfortable life, whereas the athletes stay in rooms 
with two or four people because they're considered down the 
food chain, but, in reality, the officials never would have 
been there if the athletes weren't participating.
    Senator Klobuchar. Exactly.
    Mr. Maurizi. I think that that mentality, I mean, is 
stupid. I have always thought that. I never understood why 
athletes were put down the food chain, and I think that they 
for sure should be the leaders of the organization.
    Senator Klobuchar. So having more on these Governing Bodies 
and the U.S. Olympic Committee would help?
    Mr. Maurizi. It is a place to start for sure.
    Senator Klobuchar. I would think that would lead to changes 
even outside of the reporting of sexual assault.
    Go ahead, Ms. Farrell.
    Ms. Farrell. I think it was across all Olympic sports, we 
have two athlete reps per sport and over the years, they 
changed. They had to be male and female, et cetera, but so 
after I was abused, Andy Gabel's best friend was the athlete 
rep. So I wasn't going to tell her. Once he stopped skating, 
everyone was like then, well, why didn't you come forward? 
Well, he was the President of U.S. Speed Skating, right, so, 
and he came up to me like a month after it stopped and he came 
up to me in the stands and he's like have you told anyone?
    So he knew right after it stopped, it was wrong. Two years 
later, we're in England at the World Championships, at a 
banquet, and he corners me and he's like have you told this 
person, have you told this person? So it doesn't stop, you 
know, and then I went up to--he was the President of U.S. Speed 
Skating and I was typically known as maybe one of the louder 
feistier ones on the team and so people asked me to go to 
President Andy and report on somebody else.
    Senator Klobuchar. Right.
    Ms. Farrell. I said this is what's going on with this 
trainer. He was employed by the USOC, and he's like so what's 
the big deal and looks at me with that smirk of like and, I 
mean, I was standing high and he was low and he just looked me 
up and down, was like, and so it's like when that becomes the 
leadership, that's the problem, and it trickling down from 
there is not going to change it.
    So having more athletes involved is going to be a very, 
very----
    Senator Klobuchar. Exactly.
    Ms. Farrell.--big idea. So expanding the definition of an 
athlete, right, so, I mean, I would love to be involved, but 
I've long since timed out of being able to be involved.
    Senator Klobuchar. OK. I don't think you would have smirked 
at anyone.
    All right. Thank you all, really appreciate your leadership 
and courage.
    Senator Moran. Senator, thank you very much.
    Now Senator Capito.

            STATEMENT OF HON. SHELLEY MOORE CAPITO, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Capito. Thank you, Mr. Chairman. Thank you for the 
hearing and thank all of you. Your stories are very compelling. 
They're very impactful, I believe, and will be, have been 
already, and will continue to be, and so I thank you for that.
    I have a couple sort of questions of during the time. I 
know as athletes, you all have psychological trainers, people 
that come in because a lot of sports is not just your bodies. A 
lot of it's your mind at the same time. So I would imagine you 
had access to psychologists during the time. Is that part of 
your training? No? No. That surprises me. Yes?
    Ms. Farrell. If we wanted. When we lived at the Olympic 
Training Center, if you wanted to, you could. It wasn't 
necessarily a very cool thing to do but I went and did it.
    Ms. Wieber. I mean, we would have to find our own. It 
wasn't a part of, you know, the National Team or USA 
Gymnastics.
    Senator Capito. Right.
    Mr. Maurizi. I actually worked with one for a little bit at 
a time, but the thinking at the time when I was a skater was 
that the sports psychologists had as much the propensity of 
messing you up mentally was much higher than helping you and so 
you only used one if you were already a mess.
    Senator Capito. Well, in thinking of ways to, you know, 
improve the system since you have access to that type of 
professionalism, you would think that part of the protocol of, 
you know, why isn't she performing very well this morning or, 
you know, is there something else going on, you would think 
that that would be part of the protocol, and I hope that it 
will become moving forward that you equip the psychologists 
with that kind of--yes, did you want to say something?
    Ms. Dantzscher. Yes, so I did work with a psychologist that 
they provided and I just didn't really click with her and I 
didn't really trust her.
    Senator Capito. It is very personal.
    Ms. Dantzscher. And find out later she was actually one of 
the people advocating for Larry Nassar when I first came 
forward. So, again, somebody that has made a lot of money from 
our sport, who still makes a lot of money from our sport, and I 
know of other instances where she worked with athletes and 
groups of athletes at gyms and, you know, compromised their 
confidentiality by telling their coaches everything and then 
the gymnasts once again get in trouble.
    So, again, when it seems like everyone who works, you know, 
for them are with them in my mind.
    Senator Capito. Right. It becomes part of the system is 
what you're saying.
    I want to change topics.
    Ms. Farrell. Can I ask one question on that?
    Senator Capito. Yes, certainly.
    Ms. Farrell. I think what you're--you're making a really 
good point in that psychology is a huge aspect of sports, but 
you said why isn't she performing well today? Well, these two 
have Olympic medals, right? So they performed pretty freaking 
well.
    However, imagine if they weren't concerned about being 
molested or raped how well they would have performed. I'm not 
saying like you specifically but like so that whole extra level 
of thinking about, yes, USA Gymnastics is a really good sport, 
we don't really need to worry about that, when it's actually 
like USA Gymnastics should be killing it everywhere because 
these girls shouldn't have to be worried about that. I went to 
sports psychologists and all sorts of shrinks for years and 
never told anyone.
    Senator Capito. Right. I know, and I'm thinking maybe this 
is an avenue to improve the situation.
    Ms. Farrell. One hundred percent.
    Senator Capito. Yes. Drugs. I'm wondering, you know, 
there's a lot of pain with injury and every sport has this and 
we have heard numerous testimony through all of our committees 
that a lot of opioid addiction occurs after a sports injury and 
has occurred after sports injuries.
    I think at least one of the young ladies that was involved 
in the case against Larry Nassar did say that she had been 
drugged or had taken drugs. I'm interested if that was 
occurring at the same time or if it was occurring and then the 
question becomes what kind of oversight over a physician does 
anybody have over what kind of drugs were being dispensed and 
at what kind of frequency? So we'll just go down the--yes? 
Anybody? Yes.
    Ms. Wieber. Well, their medical records, they don't have 
any medical records, whether they're destroyed or they just 
didn't take any.
    Senator Capito. That's convenient.
    Ms. Wieber. So looking back, we don't know. I don't even 
know what medications they were giving me. Obviously Larry 
Nassar was the one administering them. There is no record of 
it. It's really hard to tell.
    Senator Capito. As everything becomes more and more public, 
I think this is something that is probably going to be more 
pervasive than what we really know at this point.
    Ms. Farrell. In speed skating, we would have to--the 
trainer told us that when he goes back, he would empty out the 
drug tackle box and it was like he'd dispensed this, this, and 
this, and then they'd say what athlete that went to.
    Senator Capito. You would think that's what happens in a 
hospital or a doctor's office or something like that.
    Ms. Farrell. Again picking a sport that they're doing so 
well to let it slip by, you know.
    Senator Capito. Last question is--well, first of all, on 
the social media bullying, this is a real problem for me as now 
the new grandmother of four girls, but, anyway, just young 
people in general. I think it's a real problem and you 
mentioned it in your testimony how when you came forward, you 
experienced social bullying.
    So I'm very interested in that, but I'm going to jump to 
this other question because you all participate in 
international sports.
    Is this a problem internationally in every other country? 
I'm sure you talk to your fellow athletes as you're traveling 
around, especially since this has become public. Have you heard 
or talked with anybody in other countries where this is an 
issue and do they have a better protocol for handling these 
kinds of things? So I'll start with you.
    Mr. Maurizi. The truth is I'm not aware of how other people 
in other countries handle it to any large degree. I know that 
different cultures have different ways of thinking about these 
types of situations and in some countries, I'm sorry to say, 
but the culture is that this is almost normal, that it's what 
guys do.
    Senator Capito. The athletes are sort of throw-aways.
    Mr. Maurizi. The athletes are throw-aways, yes.
    Senator Capito. Yes?
    Ms. Farrell. There is a really terrible, terrible situation 
that recently fell out in USA Speed Skating Canada. So, it does 
happen in skating around the world.
    Ms. Wieber. I don't know of any specifically. If I had to 
guess, I would say probably, yes, considering the nature of our 
sport.
    Senator Capito. Right.
    Ms. Dantzscher. I would agree with Jordyn. I don't have any 
direct examples of it.
    Senator Capito. Right. Thank you. Thank you all very much.
    Senator Moran. Thank you, Senator Capito.
    We've been joined by the Chairman of the Full Commerce 
Committee, Senator Thune, and I'd recognize him now.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman, and both you and 
Senator Blumenthal, for holding the hearing and for your 
continued work to protect American athletes, and I join the 
Senator from West Virginia in having raised two daughters who 
are competitive athletes and now in the grandkids' season of 
life. It is something that really weighs heavily, particularly 
when you hear the experiences that many of you have had and so 
we are very grateful for your courage to speak out as a result 
of that.
    There is one monster who's behind bars and National 
Governing Bodies that have new mandatory reporting 
requirements. So you're making a difference. Thank you for 
doing it.
    The USOC has a new and unambiguous duty, I should say, now, 
too, to promote a safe environment in sports and a duly 
authorized U.S. Center for Safe Sport is armed with new tools 
and access to Federal funds to ensure it will operate as an 
independent and effective backstop, again a great tribute to 
the work that you all have done.
    It has been a sad chapter for Olympic athletes, but our 
recently enacted legislation does send a message to adults in 
positions of authority that nothing you ever do in athletics is 
as important as how you respond when an abused child asks for 
help. So these and other reforms are only happening because 
brave athletes stood up and called out that wrong-doing to stop 
abuse.
    While I wish it were under different circumstances, I have 
had the pleasure of meeting with Ms. Wieber and Ms. Dantzscher 
earlier this year. I have not had that opportunity to meet with 
Ms. Farrell or Mr. Maurizi, but I want to welcome you both 
here, as well, today.
    This question if for our gymnasts, Ms. Dantzscher and Ms. 
Wieber, when we met previously, we discussed the role of the 
USOC in overseeing both the NGBs and athlete safety in general.
    As the Committee looked deeper into these issues, I was 
disturbed to learn that in legal proceedings involving another 
National Governing Body, the USA Taekwondo, the USOC took the 
position that the Committee did not have a responsibility to 
protect athletes because, and I quote, ``The USOC does not have 
athletes and that the Team USA is just,'' and I quote again, 
``branding terminology.''
    Because of statements like these, I worked with my 
colleagues here on the Committee to amend the Ted Stevens Act 
to make it unambiguous, that a central purpose of the USOC is 
to promote a safe environment in sports that is free from 
abuse, including emotional, physical, and sexual abuse, of any 
amateur athlete.
    So the question I have is with this clarification, do you 
believe that the USOC's responsibility to protect athletes is 
now clear? I will direct that to Ms. Dantzscher and Ms. Wieber.
    Ms. Dantzscher. I think it's clear that they need to be 
responsible for that and that they need to have a thorough 
investigation of the USOC, as well, and I think when I hear 
statements like that, it doesn't really surprise me because 
that was our experience with the USA Gymnastics and if USA 
Gymnastics is supposed to answer to the USOC and that's the 
reaction, then obviously the problem gets worse and worse.
    Ms. Wieber. I would agree with Jamie and also after many 
people came forward and said that Larry Nassar had abused them, 
I didn't get a phone call from anybody at USOC asking anything 
until after I gave a victim impact statement in January. About 
a month and a half later, I got a call from Scott Blackmun.
    So, it's like this feeling, if you're not a currently-
competing athlete, you're not very relevant. They don't really 
care anymore, whereas if it was somebody who's still currently 
competing for USA Gymnastics and the USOC, they're going to 
care and they're going to make sure they listen to her and sit 
down with her and ask her because I know I don't think that 
they have asked any of us to sit down and listen to our stories 
like you guys are.
    Senator Thune. Well, I just hope the intention of the work 
that this Committee is doing is to make it unambiguous and 
clear, that it is part of the USOC's responsibility, and that 
protecting athletes is a priority, not only a priority that 
they need to be paying attention to, but that everybody that is 
associated with the movement, that they make it clear that that 
it's part of the culture that they need to create there.
    So we want to send that message clearly. I hope that some 
of the steps that we've been taking are helping to do that, but 
obviously we have a lot of work to do and a lot of harm has 
been done in the past and it's hard to undo that, but we want 
to make sure that the future rules are clear and everybody 
knows what their responsibilities are.
    So thank you again for being here and thank you, Mr. 
Chairman, for holding the hearing.
    Senator Moran. Thank you, Chairman Thune.
    Senator Peters.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Chairman, and thank you to 
the four of you for offering just an incredibly powerful, 
compelling testimony that I think everyone should hear.
    Mr. Chairman, Chairman Thune, and Chairman Moran, thank you 
for calling this hearing.
    I'm not a Member of this Subcommittee, but this is 
definitely something that is hitting the people of the state of 
Michigan, which I'm blessed to represent here in the Senate, 
quite hard from the monstrous actions of Larry Nassar, which 
are absolutely horrifying, and the more facts that come out, 
the more stories that come out, the more horrifying it is, and 
so it's important that we address this so it never happens 
again, and I can speak as a Michigan State alum, this has hit 
Michigan State alumni particularly hard.
    I hear it in Michigan every day as I travel around the 
country. Alumni come up to me and they wonder like how could 
this happen, you know, how could this happen at our university, 
and then the next question or the next statement they will make 
is that we have to do everything possible to make sure this 
never happens again, not just to Michigan State University but 
at other places across the country, as well.
    But then the second right after that is that they also say, 
and I want to be sure you know that they all say, we have to 
make sure that the university stands behind the victims, that 
the university has an obligation to be there for you, to be 
there to also assist in the healing process which will likely 
take a long time, and we want to make sure that we have your 
back, as well, here in the United States Senate.
    So the first question I have for Ms. Wieber is, what is 
your assessment of how Michigan State University has handled 
this situation?
    Ms. Wieber. I think they have handled it very poorly, 
honestly. It's all over the media. There has been so many 
instances where survivors will go to the board meetings and try 
to encourage them to listen and they've just been turned away 
and not listened to and denied and offered settlements and just 
ridiculous things like that.
    I think they're still refusing to admit what the problem 
really is and that they're accountable for it and I feel like 
that's what's missing is they're not accountable. They don't 
really think that they were responsible for Larry Nassar doing 
what he did, but in the end, even when we were in London at the 
Olympics, he was employed by Michigan State University even as 
the Olympic doctor.
    Senator Peters. There's a new interim President at Michigan 
State University now. How would you assess his handling of the 
situation?
    Ms. Wieber. I would say he's almost trying to fight the 
survivors versus working with us. I think that that would be my 
assessment.
    Senator Peters. Has he reached out to you in any way?
    Ms. Wieber. No.
    Senator Peters. Do you know if he has reached out to other 
victims in a meaningful way?
    Ms. Wieber. I don't know.
    Senator Peters. Ms. Dantzscher, you've also mentioned 
Michigan State University. Do you have an assessment of how you 
believe that they've handled the situation?
    Ms. Dantzscher. I'd have to agree with Jordyn and that's 
pretty much it. I mean either, you know, when they had reports 
and complaints and allegations of Larry Nassar and they never 
told USAG and vice versa and, you know, I think hundreds of 
victims were molested even after complaints were made, so.
    Senator Peters. Ms. Wieber, we're going to have or at least 
we've requested--Mr. Chairman, you've requested Michigan State 
University, I believe, to appear.
    Senator Moran. I'll try to make that clear. We have set a 
date, May 22, for an additional hearing. My intention is to 
have Michigan State, the U.S. Olympic Committee, and USAG 
invited. They have not yet been invited. They've only been 
notified of the date, sort of a save-the-date request.
    Senator Peters. Very good. Well, I appreciate that, 
appreciate reaching out, and it's going to be important to have 
all of them here obviously because we have to make sure that it 
doesn't happen again, and I think I'm certainly going to take 
to heart the incredible testimony that I received from all four 
of you.
    But I guess I'm curious when they are before us, and I 
intend to be back when they're here before us in this 
subcommittee, what question would you like to have them answer, 
if you had one question, and whoever would like to start, but I 
would like to hear from all four of you as you're thinking 
about that.
    Mr. Maurizi. When I think back to my particular situation, 
there's just no way that dozens, if not hundreds, of people in 
and around the ice rinks didn't know what was going on. I look 
back on it. It was obvious. I mean 5-hour meetings in the 
office with, you know, a 15-year-old boy. That's ridiculous.
    My question would be how do you live with yourself? How are 
you able to be so weak within yourself to not be able to stand 
up simply because somebody's going to look at you wrong, 
somebody's going to not maybe like you as much? How are you 
able to sleep at night? That'd be my question.
    Senator Peters. Thank you. If anyone else would like to, 
you don't have to, but anyone else?
    Ms. Wieber. I think my question would be why still is 
reputation of the university and money more important than the 
lives of hundreds of girls and women who are abused under their 
responsibility?
    Senator Peters. Thank you.
    Ms. Farrell. I think you should take our names out and take 
our pictures out and put their kids in and see if it makes a 
difference, and the idea that they are worried about people 
looking at them poorly by speaking up and doing the wrong 
thing, maybe a few individuals at the time, well, let them know 
that there are thousands of people looking at them like they 
should be for missing the opportunity.
    I mean, my incident, as well, started at Northern Michigan 
University and the police knew and it should have never 
happened. The police knew and it should have never happened. 
Like there's just no other explanation.
    Senator Peters. Thank you. Thank you very much, appreciate 
your testimony.
    Senator Moran. Senator Peters, thank you very much for 
joining us, I appreciate it. Senator Peters is a member of the 
Full Commerce Committee but not a Member of this Subcommittee, 
and we appreciate your interest in this topic and particularly 
as it relates to Michigan and Michigan State.
    We have just a few minutes before vote's going to be 
called.
    I do have questions and Senator Blumenthal, I teased him a 
bit a moment ago because every time he tells me that he knows 
he has gone beyond his time, he keeps talking. So I assume he 
feels comfortable knowing that he has already had his second 
round of questions. So I'm going to keep talking.
    Senator Blumenthal. And I'm going to remain silent.
    Senator Moran. Let me ask this question. There's an image, 
at least in my world of how I view U.S. Olympics athletes, and 
we put you on a pedestal, those who are aspiring to be U.S. 
Olympic winners, those who have that success.
    I think we have a culture in this country in which we 
admire young men and women who pursue success, who pursue 
excellence in sports.
    I also have an image of the U.S. Olympic Committee as a 
place in which that process by which that aspiration is pursued 
occurs and had the sense before these stories developed that 
they, too, would put the Olympians, the athletes, on a 
pedestal, as well.
    What has been described to me in conversations, as well as 
your testimony today, is something significantly different than 
that, unless you tell me that I've misunderstood, and the 
financial burdens that come from being an athlete pursuing 
Olympic gold is significant and tremendous.
    You've all talked about grooming. I assume that's related 
to the aspiration to be an Olympian, to be an Olympic gold 
winner, but it also could be part of the financial aspect. You 
are successful financially when you have success athletically 
is the way it seems to me and so I'm interested for a couple of 
reasons about the finances, but for me to understand that, 
maybe if just one of you would describe to me what your life is 
like as you pursue that dream of being an Olympic gold winner 
and what that means in a sense of who you rely on, who your 
family is.
    We've talked about how Dr. Nassar is a person who you went 
to because he was kinder and more accommodating to the concerns 
you had and groomed you to end up in a particular circumstance, 
but tell me about the nature of being an Olympic athlete that 
lends itself particularly because of finances to the way that 
you behave and the way that that allows other people to treat 
you. Does that question make sense? OK.
    I don't know who would be best to do this. Ms. Wieber?
    Ms. Wieber. I think I understood what your question was. So 
for gymnastics specifically, once you make the U.S. National 
Team, only then you get training expenses funded. So it's a 
stipend every month of $800.
    Senator Moran. So in your case, from age what to what you 
and your family were paying for your efforts?
    Ms. Wieber. Right. So I started at age four and I made the 
National Team at age 11, which is a little bit early, earlier 
than most girls, but only then you get your training expenses 
covered, which is, well, you get a stipend every month, which 
may or may not cover all of your expenses, which is medical 
bills, tuition, gas driving to and from practice every day, 
twice a day.
    Senator Moran. And this is the training that occurred in 
Texas?
    Ms. Wieber. This is training at our own club gyms.
    Senator Moran. Oh, club. OK.
    Ms. Wieber. Yes. So then we would go once a month to the 
Karyoli Ranch for the National Team Training Camps and you only 
get that cost covered if you are on the National Team, which is 
20 girls. Twelve girls in the country are on the National Team.
    And for gymnastics, there's not a lot of money to be made 
in this sport. You really only get paid if you are a 
professional athlete and for gymnasts, just because of the 
nature of our sport, a lot of us peak when we're between like 
15 and 18 years old, I would say. A lot of girls want to get a 
full ride scholarship to compete in college. So they have to 
not go professional so that they can go get a full ride 
scholarship in college or you can decide to accept money and 
endorsements and commercials and take that risk and not be able 
to compete in college and have to pay your own money through 
college, which is what I did.
    So it's a difficult decision to make because you can't get 
your full ride scholarship to college and then try to go to the 
Olympics. That's an extremely rare thing. I think only a couple 
girls have been able to accomplish that just because by that 
time, your body's so beat up and just with injuries and 
everything, you can't handle it.
    So there's really not a lot of money to be made in 
gymnastics until after you become an Olympian. So once you 
become an Olympian, you can get, you know, commercials and 
sponsors and those sorts of things.
    Senator Moran. So what's your financial circumstance? I 
don't mean this in a personal way, but what's an athlete's 
financial circumstance while going through the training? You 
said you got a stipend. Are you dependent upon that stipend for 
your cost of living?
    Ms. Wieber. Well, we're children at the time, so we're 
living with our parents. I don't know. I'd have to ask my mom.
    Senator Moran. So in that sense, it's your parents who are 
footing the bill.
    Ms. Wieber. Yes.
    Senator Moran. And that would depend upon a particular 
athlete's family's circumstance as to whether that's possible.
    What I'm trying to get at is the pressure that must arise 
in your lives, both financially and the desire to succeed. What 
I was trying to hear from you is what's the relationship that 
you have with USAG in your case, based upon your desire to 
succeed as an athlete and based upon the financial 
circumstances, how important is your relationship to USAG to 
those two things?
    Ms. Wieber. I would say very important. I think all of our 
family situations and our parents, we relied on making the 
National Team every year so we can get that funding to be able 
to afford because gymnastics is a very, very expensive sport, 
not only just paying our coaches but all the equipment that's 
involved and our grips and things like that, and I think where 
Larry Nassar kind of comes into the situation was we all felt--
I mean, I lived in Michigan. He was 20 minutes away from my 
house. So my parents felt like I was sort of getting special 
treatment when he would invite me to be treated at his house 
or, you know, sneak me in the back door of the office where 
none of the appointments were recorded or notes weren't taken 
or anything like that.
    So my parents sort of thought that was a privilege and I 
was getting special treatment, not being charged for those 
appointments and him volunteering his time.
    Ms. Dantzscher. So my family, we didn't grow up with a lot 
of money and I had six siblings, four sisters, two brothers, 
and they all wanted us to play sports and we all did.
    We also lived about an hour and a half drive from the gym. 
So it was a really big sacrifice on not only my parents but my 
siblings, as well, to keep my sisters and I going to gymnastics 
and in my mind, even when I made National Team at 12, I know 
that stipend was so low and anything at that time helped my 
parents out, but it definitely was a struggle financially all 
the way through the Olympics and actually my main goal in 
gymnastics became getting a full scholarship in college because 
I knew my parents would struggle trying to pay for college.
    But, yes, financially it was a struggle the whole time. I 
mean, USAG, I wouldn't call that really helping much.
    Senator Moran. Thank you, both of you, for what you're 
saying.
    What I am trying to make certain I understand and I believe 
I do but wanted to confirm is that there is a reliance and 
therefore your relationship with USAG that is important to you, 
both to your families' financial circumstances as well as any 
chance you have to become an Olympic star, is that accurate?
    Ms. Dantzscher. Yes, you have to, even in any club, any kid 
to even be a gymnast or have a chance to compete, you have to 
pay USAG a membership and so as an athlete, we are highly 
dependent on USA Gymnastics for any chance of anything 
financial, but we are dependent on them 100 percent for any 
chance to make National Team, World Team, or Olympic Team.
    There's no other pathway to make an Olympic Team without 
going through USA Gymnastics.
    Senator Moran. The vote has been called and Senator 
Blumenthal tells me he's soon to leave to do that and that's 
fine. I will conclude the hearing in just a moment or two.
    Senator Blumenthal. And I just want to thank all of you for 
being here today and we look forward to continuing this 
conversation. Thank you.
    Senator Moran. Violating your earlier statement. Thank you, 
Senator Blumenthal. Senator Blumenthal and I will continue to 
work together in a bipartisan way. You saw interest by many 
members of this subcommittee on this topic, and we're 
interested in making certain that the testimony that you 
provided us today is utilized in a way that benefits those who 
are following you, those who are pursuing the same goals that 
you've pursued in your life, that they are protected.
    I'm going to follow up particularly with the financing 
circumstance of being an Olympic athlete, but I also think the 
most important thing that we could accomplish here is the word 
``system'' has been used, systemic, is to determine what the 
flaws are in the system, such that what I said in my earlier 
statement about I don't know people who wouldn't report, who 
wouldn't respond, who wouldn't go to the police, who wouldn't 
go to somebody and when someone in authority is told to follow 
through and make a difference.
    I don't know human beings who wouldn't respond in a way 
that apparently which is so different than what your experience 
was and I want to figure out how we make certain that this is 
not replicated in anybody else's life.
    So my interest in part is about how we make certain that 
when a perpetrator commits a crime against a young man or woman 
who is an athlete, there is a consequence such that the 
behavior stops, the act ends, and that obviously demands 
reporting and consequences of reporting.
    So what I've heard so far in conversations with athletes 
and the testimony today is we have reporting but no consequence 
and that's where this needs to have a long time come to an end.
    So let me conclude the hearing. I'm not really ready to 
conclude but the time no longer allows me to continue to ask 
questions. I will continue to pursue conversations with you, if 
you're willing.
    But I always give witnesses the opportunity to tell this 
Committee anything that they want to make certain that we have 
heard and perhaps you didn't have a chance to say in your 
opening statement or perhaps it arose as a result of a 
question, but is there anything that you would like to place 
into the record as something that is important for me and my 
colleagues to hear today?
    Mr. Maurizi. Real quickly, I know you have to go. If there 
was some mechanism, something in place where organizations, 
such as the USOC or U.S. Figure Skating or any of these boards, 
were mandated to report under penalty of something that's 
severe, then I think that people would come forward.
    I don't think anybody's going to come forward--very few 
people are going to come forward because they believe it's the 
right thing to do. I think more people are going to come 
forward because they're scared of what's going to happen to 
them if they don't and that seems to be the motivator for--
potential motivator.
    Senator Moran. Thank you very much. One of my take-aways 
from the hearing testimony today is this needs to get to law 
enforcement because the system that surrounds an athlete is to 
date insufficient to protect them.
    Mr. Maurizi. The reality is that if the police were allowed 
to hear my report back in 1998 or 1999, he would have been 
stopped cold right then and that would be a great solution.
    Senator Moran. Let me make sure I understand that. There's 
no reason that your report could not have been heard by the 
police, except it wasn't----
    Mr. Maurizi. Timely.
    Senator Moran. It wasn't timely but not timely in a police 
sense, not in a law enforcement sense, but not timely in your 
individual athletic organization's sense, right?
    Mr. Maurizi. Correct on both counts. The organization had 
an unbelievably ridiculous rule at the time, but even law 
enforcement--for me, 36 years old was not too old. That's the 
time when I was able to talk about it and deal with it. The 
fact that 26 was as old as I was allowed to be in order for it 
to matter from the criminal sense doesn't seem right.
    Senator Moran. So you were caught in the 60-day rule of 
your own organization and you were caught by a statute of 
limitations in which had it been reported to law enforcement, 
you could not have charged somebody with a crime?
    Mr. Maurizi. Correct.
    Senator Moran. Thank you. Anyone else?
    Ms. Farrell. I want to say thank you. I mean, I felt alone 
for years and years and years and years and years and telling 
my story has not been easy or enjoyable in any way, but, I 
mean, I never thought I would be here saying this because I 
never thought anyone would listen. So thank you.
    Senator Moran. You're very welcome.
    Ms. Wieber. I just want to finish by saying thank you, as 
well, and I just want to add that I think in addition to the 
reporting things that we talked about, a big message needs to 
be sent to our National Governing Body, USA Gymnastics, because 
I still feel like they don't quite understand how this all 
happened within themselves and whether that means they need to 
be de-certified or start fresh with a new entity. I feel like 
they're still not quite understanding the problem and I think 
our Governing Body has so much power over gymnastics across the 
country. Whatever happens at these club gyms, they're following 
suit with what happens at USA Gymnastics, every month at the 
training camps, and with the selection of the Olympic Teams.
    So I feel like that could really be a good solution to 
helping gymnastics countrywide.
    Senator Moran. One of the things I recall, I think it's 
from your testimony but recall from someone's testimony today, 
is while the Board of Directors has changed at USAG, the actual 
individuals who on a more day-to-day basis deal with athletes 
has not and that stands out to me as a structural flaw and I 
appreciate hearing that today. It gives me additional 
opportunities for pursuing a better outcome.
    Ms. Wieber. Thank you.
    Senator Moran. Thank you. Thank you all very much. I 
appreciate you saying thank you. I hope that you felt that we 
were grateful to you for your presence here today and that we 
want to do things to make certain that your efforts to testify 
and to pursue perhaps justice in your own life means that 
others will not encounter the tragedies that have occurred for 
athletes in the United States under again circumstances that I 
can't figure out how they could be.
    We're going to conclude the hearing. Let me find the papers 
that give me the magic words.
    The hearing record will remain open for two weeks. That 
means that there may be members of this Committee who ask you 
questions and you can respond in writing to us. Our 
Subcommittee members are asked to submit their questions for 
the record during that time and upon receipt, we would then ask 
you to respond as quickly as you can to any questions that are 
presented to you in writing.
    That does conclude the hearing and again we've said thank 
you many times today. I say it again and the hearing is now 
concluded.
    [Whereupon, at 4:43 p.m., the hearing was adjourned.]

                            A P P E N D I X

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Thank you, Mr. Chairman, for holding this hearing.
    I say this with no degree of exaggeration to our witnesses before 
us today: you are courageous heroes for being willing to come forth and 
tell your stories.
    It is hard for many of us to fathom just how badly you suffered 
from unspeakable abuse in your youth and the pain you likely still live 
with today.
    But by telling your stories here, you are raising public awareness 
to help prevent such crimes from happening again. By speaking out, you 
are challenging every responsible adult to be accountable for the 
children who are under our collective watch in youth athletics.
    Responsible adults failed you. The system failed you. As a society, 
we have a sacred duty to prioritize the safety and welfare of our 
youth. As a society, we failed in that duty.
    It is my sincere hope that we are now at a turning point. In 
addition to heightened public awareness, Congress also passed the 
Protecting Youth Athletes from Sexual Abuse and Safe Sport 
Reauthorization Act, which I believe will go a long way towards 
preventing such horrific crimes in the future. I worked with Chairman 
Thune and Senator Feinstein on this law, and I want to thank them for 
their terrific work and advocacy.
    However, more reforms may be in order.
    To be sure, the Center for Safe Sport will investigate and address 
reports of athlete abuse, and youth sports organizations and National 
Governing Bodies--such as USA Gymnastics, U.S. Speedskating, and U.S. 
Figure Skating--will now be required to develop and implement policies 
and safeguards to protect kids. That's why we should be prepared for 
more reforms if necessary.
    Furthermore, we must make sure that there is full accountability 
for the actions--or inactions--that were taken in the past. I look 
forward to hearing from our witnesses today on all of these counts.
    Thank you again, Mr. Chairman.
                                 ______
                                 
    Prepared Statement of Hon. Dianne Feinstein, U.S. Senator from 
                               California
    I'd like to thank Chairman Moran and Ranking Member Blumenthal for 
holding this subcommittee hearing on Olympic abuse and the role of 
national governing bodies in protecting our athletes.
    This is an extremely important and bipartisan issue, and I am very 
grateful to both the Chairman and the Ranking Member for giving it the 
attention it deserves.
    I would also like to thank the four athletes, Jordyn Wieber, Jamie 
Dantzscher, Bridie Farrell, and Craig Maurizi for their willingness to 
come before the subcommittee and speak out about their experiences. 
These survivors have inspired us on and off the international stage.
    They have made our country proud and we have let them down. We owe 
it to them, and all of the other survivors, to continue to shed light 
on the failures of those who were meant to protect them, and bring 
justice to those who have long deserved it.
    I'd like to start by addressing the bravery displayed by Jordyn and 
Jamie, young women who have inspired generations of young girls, and 
women who themselves were subjected to unspeakable horrors but are now 
stepping forward as brave survivors.
    These remarkable women are among more than 265 current and former 
gymnasts who came forward to tell of their abuse from Larry Nassar. 
They have both shown immense bravery, testifying here, at the 
sentencing hearing of Larry Nassar, and many other places.
    It is because of their powerful and deeply personal stories that I 
first began working on the Protecting Young Victims from Sexual Abuse 
and Safe Sport Authorization Act with Commerce Committee Chairman 
Thune, Ranking Member Nelson, and Judiciary Chairman Grassley, to 
remedy harms done to survivors, and to provide greater oversight and 
uniformity to how amateur sports organizations handle sexual abuse 
allegations against coaches and others.
    The bill authorizes the U.S. Center for Safe Sport--modeled after 
the U.S. Anti-Doping Agency--to ensure that aspiring Olympic athletes 
can report allegations of abuse to an independent and non-conflicted 
entity for investigation and resolution.
    Additionally, the bill provides much stronger legal protections to 
victims of child sex and human trafficking crimes--ensuring that they 
have longer to file cases, and ensuring that they be entitled to 
statutory damages immediately upon establishing that crimes were 
committed against them.
    The bill was the culmination of months of hard work in the Senate 
and House, and by the many gymnasts and other athletes who championed 
this bill and advocated passionately for its passage. I was delighted 
to see it signed into law on February 14, 2018.
    And the fact of the matter is: it would not have been possible 
without Jamie, Jordyn, and so many more survivors who came to speak 
out.
    Despite this accomplishment, we are far from done. Stories have 
continued to break about the failure of USA Gymnastics to protect its 
young athletes. Another former Olympian, McKayla Maroney, recently came 
forward on NBC Dateline with more very troubling stories about the 
organization.
    These new revelations are deeply troubling, and I support this 
Committee's efforts to investigate what exactly happened at U.S.A. 
Gymnastics and within the U.S. Olympic Committee. As lawmakers, we must 
make sure that these institutions are accountable, and that they 
vigorously and swiftly implement the legislation that Congress has 
enacted.
    So I again would like to thank both Chairman Moran and Ranking 
Member Blumenthal for their continued work on this issue and for 
holding this hearing.
    And I look forward to the next subcommittee hearing on this topic 
on May 22, 2018.
    Thank you.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Jerry Moran to 
                            Jamie Dantzscher
    Question 1. The U.S. Center for SafeSport is an independent 
investigator, source for reported information and administrator of 
national prevention and training outreach. Do athletes undergo training 
on their rights and how to report abuse and how to detect signs of 
abuse, whether for themselves or on behalf of another athlete?
    Answer. No, When I was an athlete, SafeSport was not implemented at 
all and there was no other training or education for the athletes on 
how to detect any kind of abuse.

    Question 2. National Governing Bodies must ``keep amateur athletes 
informed of policy matters reasonably reflect the views of the athletes 
in its policy decisions.'' As a USAG member, how did the organization 
inform you of policy matters? Did these policies reasonably reflect the 
views of the athletes? If not, do you believe the governance reforms 
that USAG is currently implementing are sufficient to address any 
shortcomings in this regard?
    Answer. USAG policies NEVER reflected the views of the athletes 
when I was competing. No. I believe USAG is implementing a program like 
SafeSport more as a publicity stunt rather than seriously taking action 
to change a system that has failed to protect child athletes for so 
many years.

    Question 3. Even before it was amended this year by the Protecting 
Young Victims from Sexual Abuse and SafeSport Authorization Act of 2017 
(P.L. 115-126), the Ted Stevens Act imposed specific requirements on 
NGB's with respect to training, sports medicine, and safety, which 
remain in effect today. Specifically, NGB's are required to ``provide 
and coordinate technical information on physical training, equipment 
design, coaching, and performance analysis'' and to ``encourage and 
support research development, and dissemination of information in the 
areas of sports medicine and sports safety.'' In light of the medical 
protocols employed by Dr. Larry
    Nassar in his capacity as a team doctor, and the coaching 
practicing employed at the USA Gymnastics National Team Training 
Center, how has USAG's actions impacted its credibility on these 
issues? If USAG fully implements the governance reforms it is currently 
pursuing, do you believe USAG will be prepared to meet its duties in 
this regard?
    Answer. I think USAG provided information only to minimally (if 
that) meet the requirements of the Ted Stevens Act and such. However, 
they did not apply or enforce these policies to ensure the safety of 
their athletes. Their failure to do so has not only resulted in 
physical, emotional, and mental abuse to USA gymnasts, it also allowed/
enabled Larry Nassar (and many other USAG coaches) to sexually abuse 
young gymnasts for so many years. USAG failed to even enforce their own 
policies. (i.e., No man should ever be alone in a room with their 
underage athlete)

    Question 4. Under the Ted Stevens Olympic and Amateur Sports Act, 
National Governing Bodies have a general duty ``to develop interest and 
participation throughout the United States and be responsible to the 
persons and amateur sports organizations it represents.'' In the wake 
of the Larry Nassar scandal, USA Gymnastics is currently implementing a 
number of governance reforms including those directed by the USOC's 
working group. In your view, how has USAG's handling of the Nassar 
scandal impacted interest and participation in the sport of gymnastics? 
If USA Gymnastics' actions have decreased interest and participation in 
the sport, do you believe it will be prepared to meet its duty once the 
governance reforms are fully implemented?
    Answer. USAG handling of the Nassar scandal has definitely impacted 
the interest and participation negatively in gymnastics. Instead of 
taking any responsibility, they have labeled Larry Nassar as ``One Bad 
Seed'' which is clearly not the case. I do not believe that USAG will 
be prepared to meet its duties with the people there right now because 
the same culture and mentalities exist. I believe the decertification 
of USAG is crucial to ensure that significant changes will be made for 
the future of gymnastics.

    Question 5. Related to the culture of USA Gymnastics, there have 
been assertions that the organization took an aggressive approach of 
cutting lines of communication between the athletes and their families. 
One would think that an athlete's ability to communicate with their 
loved ones would improve the chances of catching abuse sooner given the 
familiarity and comfort of discussing sensitive subjects with family. 
Would you agree?
    Answer. I agree. Isolating the athletes is just another way USAG 
was able to control the athletes and allow someone like Larry Nassar to 
flourish.

    Question 6. In each of your experiences, what were the major 
impediments to reporting sexual abuse to your respective National 
Governing Body (NGB), including their affiliated clubs, the U.S. 
Olympic Committee, and law enforcement? Were there specific instances 
in which your efforts to report abuse to law enforcement were deterred 
or impeded?
    Answer. I never understood that I was being sexually abused until 
late Summer 2016.

    Question 7. What are athletes looking for in a new President and 
leadership positions at USOC? Should athletes have more of a voice in 
these decisions?
    Answer. The new President and leaders should put the needs and 
safety of the athletes first. The athletes should absolutely have a 
voice in these decisions.

    Question 8. Are you aware of any individuals that knew about your 
abuse and failed to act that is still employed by USOC or your NGB? If 
so, who are they?
    Answer. My personal opinion is that many people knew about the 
abuse including the Karoylis.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Richard Blumenthal to 
                            Jamie Dantzscher
    Question. Please explain, at each level of your training, how your 
NGB or USOC paid for your training, equipment, health insurance, or 
other benefits. At what level of your training did you receive 
compensation? How was this amount determined? What opportunities did 
you have at each level of training to receive compensation?
    Answer. Yes, the USOC did pay for training, equipment, health 
insurance, and other benefits. When you make the National Team you 
receive compensation in order to pay for training enhancements.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                          to Jamie Dantzscher
    Question 1. In your testimony, you discuss the fear that reporting 
your mistreatment would risk your chances of making the Olympic team. 
If you had decided to report your abuse, do you believe that there was 
anyone within USA Gymnastics who you could have trusted to take your 
concerns seriously? Who would have prioritized protecting your safety 
and well-being over the reputation of the national program?
    Answer. No, I don't believe I could have trusted anyone within the 
USAG organization. An athlete representative was assigned to the 
athletes but I feel they were not helpful. They did not report any 
issues of concern that were addressed to them. USAG used these 
representatives as pawns to continue the abuse. There was a fear in 
speaking up feeling your dreams of an Olympic medal would be taken 
away. In my opinion, there was no one appointed to make sure we were 
protected.

    Question 2. To your knowledge, is there anyone within your sport's 
NGB whose job it is to advocate for athletes, rather than the 
organization?
    Answer. Yes, there is an athlete representative. But in my 
experience, she was not helpful and couldn't be trusted.

    Question 3. Do you think you could have benefitted from having an 
advocate like that at your training facilities?
    Answer. Absolutely! But I feel they need to be appointed by an 
outside source so there is no bias.

    Question 4. When you joined the national team, did you have to sign 
contracts with USOC or USA Gymnastics? What about when you were 
selected to participate in international competitions, including the 
Olympics? If you participated in the Kellogg's Tour?
    Answer. I only remember signing a USA National Team handbook when 
making National Team each year from ages 12-18.

    Question 5. If you did sign contracts, can you discuss that 
process--were you able to be represented by a lawyer? Did you feel 
confident that you understood all the terms of the contracts you 
signed? Did you feel that you had the opportunity to negotiate the 
terms of these agreements?
    Answer. No, I was not represented by an attorney. No, I was not 
comfortable signing contracts nor did I have a thorough understanding 
because I was a child. No, I was not in a position to negotiate the 
terms of the contract because I was a child.

    Question 6. Have any of you ever been asked to sign a nondisclosure 
agreement related to any aspect of your relationship with the U.S. 
Olympic Committee, or USA Gymnastics? Have you ever gone through an 
arbitration process with those organizations?
    Answer. No, non disclosure agreement was signed. No arbitration 
took place.

    Question 7. During your time as an athlete, were there any mental 
health resources or counseling services available to you? Do you think 
it would have been beneficial for athletes to have access to counseling 
services or a sports psychologist? Do you think it would have been 
beneficial if mental health services was a requirement of 
participation, like training or other medical services are a 
requirement?
    Answer. Yes, there was a sports psychologist and they did not keep 
our sessions confidential. She was untrustworthy and unethical. A 
qualified therapist would have been beneficial. Mental health services 
would have been helpful if required. It would have created dialogue and 
conversation.

    Question 8. If the USOC and the NGB's were required to publish 
statistics about the number of reports and complaints of sexual 
misconduct they receive every year, as well as information about their 
efforts to investigate and resolve those cases, do you think it would 
help demonstrate to athletes that they are not alone, and that their 
concerns will be taken seriously? Do you think that making the type of 
information publicly available would help encourage athletes to come 
forward if they are experiencing abuse?
    Answer. Absolutely! Yes, however it should remain anonymous under 
the conditions because NGB still control the athletes career.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Jerry Moran to 
                             Jordyn Wieber
    Question 1. The U.S. Center for SafeSport is an independent 
investigator, source for reported information and administrator of 
national prevention and training outreach. Do athletes undergo training 
on their rights and how to report abuse and how to detect signs of 
abuse, whether for themselves or on behalf of another athlete?
    Answer. On the National team we didn't even know it existed nor did 
we receive any training.

    Question 2. National Governing Bodies must ``keep amateur athletes 
informed of policy matters and reasonably reflect the views of the 
athletes in its policy decisions.'' As a USAG member, how did the 
organization inform you of policy matters? Did these policies 
reasonably reflect the views of the athletes? If not, do you believe 
the governance reforms that USAG is currently implementing are 
sufficient to address any shortcomings in this regard?
    Answer. N/A.

    Question 3. Even before it was amended this year by the Protecting 
Young Victims from Sexual Abuse and Safe Sport Authorization Act of 
2017 (P.L. 115-126), the Ted Stevens Act imposed specific requirements 
on NGBs with respect to training, sports medicine, and safety, which 
remain in effect today. Specifically, NGBs are required to ``provide 
and coordinate technical information on physical training, equipment 
design, coaching, and performance analysis'' and to ``encourage and 
support research, development, and dissemination of information in the 
areas of sports medicine and sports safety.'' In light of the medical 
protocols employed by Dr. Larry Nassar in his capacity as team doctor, 
and the coaching practices employed at the USA Gymnastics National Team 
Training Center, how has USAG's actions impacted its credibility on 
these issues? If USAG fully implements the governance reforms it is 
currently pursuing, do you believe USAG will be prepared to meet its 
duties in this regard?
    Answer. N/A.

    Question 4. Under the Ted Stevens Olympic and Amateur Sports Act, 
National Governing Bodies have a general duty ``to develop interest and 
participation throughout the United States and be responsible to the 
persons and amateur sports organizations it represents.'' In the wake 
of the Larry Nassar scandal, USA Gymnastics is currently implementing a 
number governance reforms including those directed by the USOC's 
working group. In your view, how has USAG's handling of the Nassar 
scandal impacted interest and participation in the sport of gymnastics? 
If USA Gymnastics' actions have decreased interest and participation in 
the sport, do you believe it will be prepared to meet its duty once the 
governance reforms are fully implemented?
    Answer. N/A.

    Question 5. Related to the culture of USA Gymnastics, there have 
been assertions that the organization took an aggressive approach of 
cutting lines of communication between the athletes and their families. 
One would think that an athlete's ability to communicate with their 
loved ones would improve the chances of catching abuse sooner given the 
familiarity and comfort of discussing sensitive subjects with family. 
Would you agree?
    Answer. N/A.

    Question 6. In each of your experiences, what were the major 
impediments to reporting sexual abuse to your respective National 
Governing Body (NGB), including their affiliated clubs, the U.S. 
Olympic Committee, and law enforcement? Were there specific instances 
in which your efforts to report abuse to law enforcement were deterred 
or impeded?
    Answer. N/A.

    Question 7. What are athletes looking for in a new President and 
leadership positions at USOC? Should athletes have more of a voice in 
these decisions?
    Answer. New President who is transparent and someone who put 
athletes first. Former athletes should definitely be part of the Board 
not just the one sport they currently have.

    Question 8. Are you aware of any individuals that knew about your 
abuse and failed to act that is still employed by USOC or your NGB? If 
so, who are they?
    Answer. At the time, when I was competing, I never told anyone.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Richard Blumenthal to 
                             Jordyn Wieber
    Question. Please explain, at each level of your training, how your 
NGB or USOC paid for your training, equipment, health insurance, or 
other benefits. At what level of your training did you receive 
compensation? How was this amount determined? What opportunities did 
you have at each level of training to receive compensation?
    Answer. If we were on the national team we received a monthly 
stipend. Only national team members at the top 10 or 12.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                            to Jordyn Wieber
    Question 1. In your testimony, you discuss the fear that reporting 
your mistreatment would risk your chances of making the Olympic team. 
If you had decided to report your abuse, do you believe that there was 
anyone within USA Gymnastics who you could have trusted to take your 
concerns seriously? Who would have prioritized protecting your safety 
and well-being over the reputation of the national program?
    Answer. I don't believe that there was anyone that I could trust.

    Question 2. To your knowledge, is there anyone within your sport's 
NGB whose job it is to advocate for athletes, rather than the 
organization?
    Answer. We had one athlete rep but she was also on the selection 
committee, which seemed to me to be a conflict and we felt that if we 
confided in her, it would hurt our chances to make the Olympics.

    Question 3. Do you think you could have benefitted from having an 
advocate like that at your training facilities?
    Answer. Yes

    Question 4. When you joined the national team, did you have to sign 
contracts with USOC or USA Gymnastics? What about when you were 
selected to participate in international competitions, including the 
Olympics? If you participated in the Kellogg's Tour?
    Answer. I am not sure, It was a long time ago, so I can't remember. 
The Olympics, we were under age so I am not sure. But the Kellogg's 
Tour we did sign a contract because we were getting paid.

    Question 5. If you did sign contracts, can you discuss that 
process--were you able to be represented by a lawyer? Did you feel 
confident that you understood all the terms of the contracts you 
signed? Did you feel that you had the opportunity to negotiate the 
terms of these agreements?
    Answer. I was young and I don't remember.

    Question 6. Have any of you ever been asked to sign a nondisclosure 
agreement related to any aspect of your relationship with the U.S. 
Olympic Committee, or USA Gymnastics? Have you ever gone through an 
arbitration process with those organizations?
    Answer. No.

    Question 7. During your time as an athlete, were there any mental 
health resources or counseling services available to you? Do you think 
that it would be beneficial for athletes to have access to counseling 
services or a sports psychologist? Do you think it would have been 
beneficial if mental health services was a requirement of 
participation, like training or other medical services are a 
requirement?
    Answer. No. Yes, it would have been most beneficial. It wouldn't 
necessarily have needed to be a requirement but definitely beneficial 
to have the availability.

    Question 8. If the USOC and the NGBs were required to publish 
statistics about the number of reports and complaints of sexual 
misconduct they receive every year, as well as information about their 
efforts to investigate and resolve those cases, do you think it would 
help demonstrate to athletes that they are not alone, and that their 
concerns will be taken seriously? Do you think that making that type of 
information publicly available would help encourage athletes to come 
forward if they are experiencing abuse?
    Answer. Yes, because then athletes would know that if they did 
report, something would be done. YES
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Jerry Moran to 
                             Bridie Farrell
    Question 1. The U.S. Center for SafeSport is an independent 
investigator, source for reported information and administrator of 
national prevention and training outreach. Do athletes undergo training 
on their rights and how to report abuse and how to detect signs of 
abuse, whether for themselves or on behalf of another athlete?
    Answer. To my knowledge, I am unaware of any training athletes 
receive on what is abuse, types of abuse, or athletes' rights. There 
was no SafeSport when I was a competitor in Speed Skating.

    Question 2. In each of your experiences, what were the major 
impediments to reporting sexual abuse to your respective National 
Governing Body (NGB), including their affiliated clubs, the U.S. 
Olympic Committee, and law enforcement? Were there specific instances 
in which your efforts to report abuse to law enforcement were deterred 
or impeded?
    Answer. I was sexually abused at age 15. I did not disclose the 
sexual abuse to anyone as I did not have the vocabulary to describe 
what happened. I was fearful of my parents taking me out of speed 
skating. I feared I would not be believed. I was scared of Andy Gabel's 
reaction (the man who abused me). Years later, I blamed myself and I 
did not disclose. When I was finally ready to speak about my child 
sexual abuse, the minute statute of limitations in NY had expired. I 
appreciate the efforts of SafeSport. It is my opinion that the USOC and 
members of Congress should push to extend the statute of limitations in 
all states.

    Question 3. What are athletes looking for in a new President and 
leadership positions at USOC? Should athletes have more of a voice in 
these decisions?
    Answer. This is a very unique opportunity in the history of the 
Olympic movement in America. The first question to ask is: Who is the 
customer? Who is the USOC meant to support? If the USOC wishes to 
appease the executives and NGBs; business as usual can continue. 
However, if the athlete is to become the focus, a new business model is 
required. I strongly encourage members of the recruiting and hiring 
committee to reach out to Mr. Mark Pfaff. I believe the USOC could 
benefit from his professional experience and personal moral character. 
(mwpfaff13
@gmail.com or contact Bridie Farrell for his phone number.)
    I think that athletes should have a large influence in the NGBs. 
One amendment to current rules is to redefine how long post-retirement 
an athlete may still serve. There are hundreds of people who would love 
to contribute, but are barred based on the limited definition of an 
athlete.

    Question 4. Are you aware of any individuals that knew about your 
abuse and failed to act that is still employed by USOC or your NGB? If 
so, who are they?
    Answer. I am unaware of anyone who knew about my abuse at the time. 
It is my belief no one knew even up until I disclosed on Feb 28, 2013.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                             Bridie Farrell
    Question 1. Please explain, at each level of your training, how 
your NGB or USOC paid for your training, equipment, health insurance, 
or other benefits. At what level of your training did you receive 
compensation? How was this amount determined? What opportunities did 
you have at each level of training to receive compensation?
    Answer. I grew up speed skating in Saratoga Springs, NY. In the 
late 1980s speed skating was free. The Saratoga Winter Club loaned out 
skates for the season and the city provided ice time. Entering a few 
races a season at $10 each was doable for families ($19 today).
    Sometime in the mid '90s the cost of speed skating significantly 
increased. Before I received any funding from U.S. Speed Skating the 
cost of one season of speed skating included second-hand equipment, one 
flight to Nationals, and no physical therapy nor doctors nor specific 
nutritional needs yet. This sum was more than the total of all my 
siblings' activities and my non skating activities combined. (Private 
music lessons for three kids, two kids running track, three of us 
playing travel soccer, a sister in full-time ballet, etc.)
    I think the initial costs are important to discuss as this is a 
huge barrier to children entering speed skating now.
    The formula for athlete funding is fluid and always being tweaked. 
Funding could come from the USOC or the NGB. I first received payments 
around 17 as a member of the Jr Team. Below are a few snapshots of 
funding methodologies.
    U.S. Speed Skating devised a point system around 2000. Points were 
accumulated throughout the season at various competitions (American 
Cups, Jr/Sr Championships, World Cups, Jr/World Championships). Each 
skater received a check proportional to the points they earned. On 
paper this was an equitable pay scale, however, there were a few 
unintended consequences. Which I'm able to explain if you want further 
detail. The point system did allow for lower ranked skaters to receive 
some funding. However the check was usually not enough to cover the 
cost of attending one competition.
    I was fortunate enough to be at the Olympic Training Center (OTC) 
in Colorado Springs when the B.J. Stupak Grant was still available. 
Only resident athletes at official training sites were eligible for the 
grant. This was not based on national ranking, but training site 
location. For example, I trained at home the year after high school and 
paid for my college tuition. When I relocated to the OTC, my tuition 
was covered in the grant. The grant could also be used for off OTC site 
living expenses.
    The top six from U.S. Championships received Level 1 funding from 
the USOC. My recollection is  $6,000. If someone within the top six 
retired after the season, the funding would go to the next in the 
finishing order. If someone said they were skating, they could receive 
the funding and then happen to retire before the U.S. Championships. 
Health insurance was included with Level 1. If a Level 1 skater broke 
her ankle and was unable to compete at the U.S. Championships, she 
would lose Level 1--the funding and health insurance would be gone. 
Think about it. Even though the athlete was injured while training and 
now needed medical care.
    For a brief period of time while I was skating, some competitors 
received blades; I never received blades though. I wasn't ranked high 
enough. Each skater purchased their own boots, blades, helmets, gloves, 
glasses, shin guards, sharpening gear, and training clothes. Skin suits 
were earned at the U.S. Championships.
    Sponsorship was a very tricky and, to me, unnecessarily tricky 
situation. I ``owned'' a patch about the size of a business card on 
either my shoulder or breast depending on a the year. I worked hard to 
obtain sponsorship and fought even harder to accept it. I had to 
exercise my athletes' first right of refusal at times. Even at 20 I 
found it so ridiculous how the NGB wouldn't work on behalf of the 
athlete to secure funding or donations. It was a bizarrely awkward 
topic.

    Question 2. How did USA Speedskating and USOC respond to your 
allegation of abuse by Andy Gabel?
    Answer. Individual members of U.S. Speed Skating management and 
board were mostly empathetic and helpful when I disclosed my story of 
sexual abuse by Andy Gabel. As a body, U.S. Speed Skating lacked a 
spine.
    The leadership at the USOC has been a disappointment, though, not a 
shock.

    Question 3. Please describe how USA Speedskating, USOC, and the 
Center for Safe Sport responded to efforts to remove Andy Gabel from 
the U.S. Speedskating Hall of Fame. How did you feel?
    Answer. When I disclosed my story, Andy Gabel was a member of the 
Speed Skating Hall of Fame and a member of U.S. Speed Skating. Gabel 
remains a member of the Hall of Fame.
    The Center for SafeSport has taken no action to sanction Gabel.
    Scott Blackmun, former CEO of the USOC, specifically said he could 
not aid me in revoking Gabel's membership from a NGB. Blackmun also 
stated the USOC could not influence the Hall of Fame Membership.
    A handful of supportive U.S. Speed Skating Members lobbied hard for 
the NGB to revoke Gabel's lifetime membership. In the end, Gabel 
relented, and gave up his membership. U.S. Speed Skating claimed they 
could not cancel Gabel's membership as he had not violated the Athlete 
Code of Conduct at the time. (Crime, as a general category, was not 
listed in the Athlete Code of Conduct.)
    U.S. Speed Skating claims no jurisdiction over the U.S. Speed 
Skating Hall of Fame. The NGB says it is a separate entity. Gabel is 
currently a member of the Hall of Fame. A group of speed skating 
members is still trying to remove Gabel from the Hall of Fame.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                           to Bridie Farrell
    Question 1. To your knowledge, is there anyone within your sport's 
NGB whose job it is to advocate for athletes, rather than the 
organization?
    Answer. Within U.S. Speed Skating I am unaware of someone dedicated 
to advocating solely for athletes. However, I believe that many and 
most of the coaches are advocates for the athletes.

    Question 2. Do you think you could have benefitted from having an 
advocate like that at your training facilities?
    Answer. In hindsight, how could things have been different . . .
    An individual to whom athletes can disclose information could 
certainly help. However, when the palpable culture is that of 
intimidation and fear, no one is going to speak.
    On TV, America sees athletes as larger than life, as super humans. 
However, we are talking about child sexual abuse. Children do not have 
the vocabulary to describe what is happening nor do they have the 
cognitive ability to recognize the situation. I personally did not know 
that Gabel's behavior was a crime until I was 26.
    Abusers and those who facilitate abuse, need to be held 
accountable. Adults who molest know they are in the wrong--that is why 
that told us, the survivors, to be quiet. Adults that are aware of 
pedophiles in the ranks and look the other way, facilitate child sexual 
abuse. As much as the USOC claims to assist in an athlete's growth and 
success, the USOC has assisted in pedophiles existence.

    Question 3. During your time as an athlete, were there any mental 
health resources or counseling services available to you? Do you think 
that it would be beneficial for athletes to have access to counseling 
services or a sports psychologist? Do you think it would have been 
beneficial if mental health services was a requirement of 
participation, like training or other medical services are a 
requirement?
    Answer. In my experience, I had access to sports psychologist while 
living at the OTC. I had a very strong and trusting relationship with 
the two individuals I worked with. And still, sexual abuse was never 
discussed.
    I do think that athletes would benefit from more psychological 
support. I can only believe it would help performance. As far as 
combating systemic child sexual abuse in sports, I don't have the 
answer. Again, the children do not have the vocabulary to articulate 
the abuse. There is such fear of retaliation, of disbelief, of loss of 
ranking (within elite sports).
    In my opinion, we need to look at the men with whom we place so 
much trust and hold the offending parties responsible.
    To make the streets safer, we don't put cops on every corner and 
give the pedestrians helmets--we teach people to drive safer.
    It is not the child athlete whose behavior needs to be altered. It 
is time the grownups grow up and hold peers responsible.

    Question 4. If the USOC and the NGBs were required to publish 
statistics about the number of reports and complaints of sexual 
misconduct they receive every year, as well as information about their 
efforts to investigate and resolve those cases, do you think it would 
help demonstrate to athletes that they are not alone, and that their 
concerns will be taken seriously? Do you think that making that type of 
information publicly available would help encourage athletes to come 
forward if they are experiencing abuse?
    Answer. I wholeheartedly support transparency. However, in a 
culture where child athletes are not able to disclose abuse, publishing 
a report of zero child sexual abuse will be a disservice. It will make 
survivors feel more isolated.
    I frequently ask myself if an athlete being abused today is more or 
less likely to disclose. Nassar is incarcerated for possessing 
pornography not for his actions. Even though Gabel admitted an 
inappropriate relationship in the Chicago Tribune, he has suffered no 
consequences. Updated laws with appropriate statute of limitations 
would allow survivors of child sexual abuse to disclose.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Jerry Moran to 
                             Craig Maurizi
    Question 1. The U.S. Center for SafeSport is an independent 
investigator, source for reported information and administrator of 
national prevention and training outreach. Do athletes undergo training 
on their rights and how to report abuse and how to detect signs of 
abuse, whether for themselves or on behalf of another athlete?
    Answer. Athletes, as far as I know, receive no information 
whatsoever. There is a chance that Team USA athletes may receive some 
but if so very minable.

    Question 2. In each of your experiences, what were the major 
impediments to reporting sexual abuse to your respective National 
Governing Body (NGB), including their affiliated clubs, the U.S. 
Olympic Committee, and law enforcement? Were there specific instances 
in which your efforts to report abuse to law enforcement were deterred 
or impeded?
    Answer. The major impediment for me, when I was became mature 
enough to talk about it, was that I believed the Federation and my 
coach were in cahoots. The Federation was all powerful and could make 
or break my career. I really didn't even know that what happened to me 
was illegal for quite some time. When I attempted to report it to law 
enforcement they told me the statute of limitations had expired.

    Question 3. What are athletes looking for in a new President and 
leadership positions at USOC? Should athletes have more of a voice in 
these decisions?
    Answer. My dealings with the USOC have been very limited so I am 
not the best resource to answer this. I will say, however, that too 
many athletes train in obscurity and the USOC could do a much better 
job making these athletes and sports more important in the public eye 
thereby sparking more interest in those sports and eventually getting 
better results at International events.

    Question 4. Are you aware of any individuals that knew about your 
abuse and failed to act that is still employed by USOC or your NGB? If 
so, who are they?
    Answer. Knew? Meaning had video evidence or pictures? No . . . But 
``knew'' in the sense that they heard the stories and believed there 
was something to9 them? The answer is YES . . .
    There are two ``Governing Bodies'' for USA Figure Skating coaches. 
There is our NGB the United States Figure Skating Association and the 
Professional Skaters Association (PSA). The PSA is the coaching arm of 
U.S. Figure Skating. They provide education for coaches as well as 
guidelines for ethical behavior as well as other issues. Even though 
U.S. Figure Skating would not even hear my grievance the PSA did. I 
provided them with countless documents and proof but was still denied 
my relief. Their answer was I did not provide adequate proof. I have 
provided SafeSport with exactly the same documentation so we shall see 
how they rule.
    To list the number of people who knew of my situation would be to 
name 90 percent of U.S. Figure Skating and 90 percent of the PSA. My 
sport is a rather popular one but at the higher levels, the USFS and 
PSA operate as a dysfunctional family if you will. Sometimes a family 
likes to keep their secrets because they don't want to be embarrassed 
or worse, thrown in jail. Cover ups were the norm and not the 
exception. The Executive Director of the PSA, Jimmy Santee, told me 
himself he knew about my abuse and he told me he also was abused but 
never reported it! The PSA Grievance Committee are all made up of 
coaches who see each other and work together on occasion.
    The current High Performance Director of USFS, a gentlemen named 
Mitch Moyer, was a coach himself at the Detroit Skating Club (DSC) when 
Richard Callaghan was hired. He and the DSC Director of Skating Johnny 
Johns knew of the allegations and rumors surrounding Mr. Callaghan and 
the Club still hired him because he achieved results with his skaters. 
Coaches were hired by the Club's Board of Directors and the President 
was a man named Drew Paterson. I was told by a student of mine that 
when Richard was hired in 1992 he was told he was not allowed to ever 
enter the Boys Locker Room but could still coach!
    The number of people who knew or suspected number in the 100s.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Richard Blumenthal to 
                             Craig Maurizi
    Question. Please explain, at each level of your training, how your 
NGB or USOC paid for your training, equipment, health insurance, or 
other benefits. At what level of your training did you receive 
compensation? How was this amount determined? What opportunities did 
you have at each level of training to receive compensation?
    Answer. My NGB never gave me any money directly ever. When I 
travelled internationally they paid for my airfare and hotel and 
sometimes I got a per diem. My coaches airfare and hotel were also paid 
for by the Federation.
    With students of mine the NGB gives a fixed amount of money per 
quarter depending on your national ranking. The skater was required to 
perform certain tasks such as participate in Team USA training Camps or 
do personal appearances etc. or they would forfeit the money. 
Federation money only goes to International Team members of which there 
are about 40 or 50 skaters.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                            to Craig Maurizi
    Question 1. To your knowledge, is there anyone within your sport's 
NGB whose job it is to advocate for athletes, rather than the 
organization?
    Answer. To the best of my knowledge no there is nobody.

    Question 2. Do you think you could have benefitted from having an 
advocate like that at your training facilities?
    Answer. Absolutely! That is an EXCELLENT idea! Athletes are the 
reason we all exist . . . I think a coaches Advocate is beneficial as 
well. We encounter our own set of issues when dealing with the 
Federation.

    Question 3. During your time as an athlete, were there any mental 
health resources or counseling services available to you? Do you think 
that it would be beneficial for athletes to have access to counseling 
services or a sports psychologist? Do you think it would have been 
beneficial if mental health services was a requirement of 
participation, like training or other medical services are a 
requirement?
    Answer. There were resources available but at my own cost. The 
Olympic Training Center may have had these resources but I was not 
aware of it. Yes it would be very beneficial for those resources to be 
available. The challenge would be how to make them accessible to a 
broader range of U.S. Figure Skating members rather than just the top 
athletes.
    I'm not sure if mental health requirements should be mandated but 
it certainly would be beneficial!

    Question 4. If the USOC and the NGBs were required to publish 
statistics about the number of reports and complaints of sexual 
misconduct they receive every year, as well as information about their 
efforts to investigate and resolve those cases, do you think it would 
help demonstrate to athletes that they are not alone, and that their 
concerns will be taken seriously? Do you think that making that type of 
information publicly available would help encourage athletes to come 
forward if they are experiencing abuse?
    Answer. ABSOLUTELY! Even more than giving them hope but to let 
potential perpetrators know the NGB is looking for them and will 
prosecute them.
    By making it public it would most certainly make a victim feel more 
comfortable with coming forward!

                                  [all]
</pre></body></html>
